<html>
<title> - THE BROADCASTING BOARD OF GOVERNORS: FINDING THE RIGHT MEDIA FOR THE MESSAGE IN THE MIDDLE EAST</title>
<body><pre>[Senate Hearing 108-607]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-607

  THE BROADCASTING BOARD OF GOVERNORS: FINDING THE RIGHT MEDIA FOR THE 
                       MESSAGE IN THE MIDDLE EAST

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS
                             AND TERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
95-841                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS
                             AND TERRORISM

                JOHN E. SUNUNU, New Hampshire, Chairman

MICHAEL B. ENZI, Wyoming             BILL NELSON, Florida
GEORGE ALLEN, Virginia               JOSEPH R. BIDEN, Jr., Delaware
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                BARBARA BOXER, California

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Ford, Mr. Jess T., Director, International Affairs and Trade, 
  U.S. General Accounting Office, Washington, DC.................    57
    Prepared statement...........................................    59
Ghareeb, Dr. Edmund, Adjunct Professor of Middle East History and 
  Politics, School of International Service, American University, 
  Washington, DC,................................................    68
    Prepared statement...........................................    71
Harb, Mr. Mouafac, News Director, Alhurra, Middle East Television 
  Network, Broadcasting Board of Governors, Washington, DC.......    30
    Prepared statement...........................................    32
Nelson, Hon. Bill, U.S. Senator from Florida, opening statement..    24
Pattiz, Hon. Norman J., Governor, Broadcasting Board of 
  Governors, Washington, DC......................................    24
    Prepared statement...........................................    29
Rugh, Hon. William A., Associate, Institute for the Study of 
  Diplomacy, Georgetown University, Washington, DC...............    46
    Prepared statement...........................................    49
Sununu, Hon. John E., U.S. Senator from New Hampshire, opening 
  statement......................................................     1
    Prepared statement...........................................     3
Telhami, Professor Shibley, Anwar Sadat Professor of Peace, 
  University of Maryland, College Park, MD.......................    52
    Prepared statement...........................................    55
Tomlinson, Hon. Kenneth Y., Chairman, Broadcasting Board of 
  Governors, Washington, DC......................................     4
    Prepared statement...........................................     6
    Alhurra and Radio Sawa Progress Report.......................     9
    Letter to Senator Sununu, dated June 3, 2004, from Kenneth 
      Tomlinson, transmitting additional information for the 
      record.....................................................    35

                                 (iii)

  

 
 THE BROADCASTING BOARD OF GOVERNORS: FINDING THE RIGHT MEDIA FOR THE 
                       MESSAGE IN THE MIDDLE EAST

                              ----------                              


                        THURSDAY, APRIL 29, 2004

                           U.S. Senate,    
   Subcommittee on International Operations
                                     and Terrorism,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 2:30 p.m., in room SD-419, Dirksen 
Senate Office Building, Hon. John E. Sununu (chairman of the 
subcommittee), presiding.
    Present: Senators Sununu, Biden, and Bill Nelson.


              opening statement of senator john e. sununu


    Senator Sununu. Good afternoon and welcome to today's 
hearing of the Subcommittee on International Operations and 
Terrorism.
    Today we will examine the Broadcasting Board of Governors 
[BBG] and evaluate whether we have found the right media mix 
and media message in the Middle East, a region whose importance 
to our country we all know well.
    We will have two panels of distinguished witnesses. Panel 
one includes Mr. Tomlinson, Chairman of the Broadcasting Board 
of Governors; Mr. Pattiz, Governor of the Broadcasting Board 
and Director of the Middle East Service; and Mr. Harb, News 
Director of Alhurra, the Middle East Television Network. Panel 
two includes Mr. Ford, Director of the International Affairs 
and Trade at the General Accounting Office; Dr. Telhami, the 
Anwar Sadat Professor of Peace at the University of Maryland; 
and former Ambassador Rugh of the Institute for the Study of 
Diplomacy at Georgetown University. We also have Dr. Ghareeb, 
Adjunct Professor of Mideast History and Politics at American 
University.
    I want to thank all the panelists for being here today to 
talk about the new Government-funded Alhurra TV network, Radio 
Sawa, and all of the challenges of matching the media to the 
audience in the Middle East.
    To win the war on terrorism, we need to not only defeat 
terrorists in the field, we need to defeat their ideas, their 
anti-democratic, anti-freedom, and the anti-American message 
that they espouse around the world, and most particularly in 
the Middle East. Today we will examine a key tool in the war on 
terrorist attempts to spread hatred and intolerance, the 
Broadcasting Board of Governors and the Middle Eastern 
services, Alhurra satellite TV and Radio Sawa in particular.
    A free, open, and fair media is vital to a free nation and 
a lasting democratic process. The dissemination of facts and 
open discussion of ideas are essential to the functioning of 
free institutions. The Broadcasting Board of Governors plays a 
vital role in the promotion of our foreign policy because it 
promotes and sustains freedom and democracy by broadcasting 
accurate and objective news and information about the United 
States and the world to audiences overseas.
    The BBG supervises all U.S. Government-funded, non-military 
international broadcasting, in 54 languages to more than 100 
markets worldwide. Its services include Voice of America, Radio 
Free Europe/Radio Liberty, Radio Free Asia, and the Office of 
Cuba Broadcasting as well. In 2002, the BBG began broadcasting 
Radio Sawa to the Middle East, and in 2004, just 2 months ago, 
the BBG started its Alhurra satellite television broadcasts.
    The board's total 2004 budget for all activities is $590 
million and for 2005 the request is just shy of $570 million.
    The BBG transmits news, information, and accurate reports 
of U.S. Government policy, as well as thoughtful criticism, 
giving citizens of countries throughout the region the ability 
to judge for themselves, which is obviously an essential 
foundation for freedom and free thinking.
    Last week here in the Foreign Relations committee, we held 
a series of hearings on the June 30 transition date in Iraq 
that were a fine example of the democratic process at work. 
Administration witnesses and non-governmental experts testified 
and Senators from both sides grappled with the tough issues we 
and the Iraqi people face during very challenging times.
    BBG seeks to set a standard of solid journalism in a region 
where a history of government-controlled media has left the 
public cynical and journalists too often seem to equate 
strident criticism of the United States with independent 
reporting.
    The BBG describes ``marrying the mission to the market'' as 
the fundamental strategy of U.S. international broadcasting 
today. But they must determine how to best reach large 
audiences in very complex, competitive media environments with 
news, as well as perspectives on American culture and 
information on official U.S. Government positions and policies. 
This task is further complicated by what is becoming an 
increasingly varied Middle Eastern broadcasting scene. While 
government-owned media still dominate national land-based TV 
and radio, satellite technology has created new stations that 
are competing vigorously for different segments of the market.
    We will ask our panelists a number of questions. In our 
first panel, we will examine Alhurra TV and Radio Sawa as 
examples of innovation at the BBG. What media are most 
influential in the Middle East now? Is it TV? Is it radio? Is 
it newspapers or is it the Internet? How does the BBG identify 
its audience? How is the audience segmented? How does the BBG 
select the media and the programming to reach different 
audiences? And of course, how do we measure success?
    On the second panel, we will see an overview of the GAO's 
recent work evaluating the performance of the BBG. Our 
panelists are uniquely qualified to further our understanding 
of the political environment and the media marketplace in which 
Alhurra and Radio Sawa operate. All three panelists on our 
second panel are distinguished authors with great personal 
experience in the region.
    We want to better understand what journalists in the region 
see as their role and their responsibilities, ask what 
attitudes are among different countries and different people in 
the Middle East toward the United States. What do people think 
of these new broadcasting groups, Alhurra and Radio Sawa? And 
how can the United States most effectively promote the 
development of free, fair, and open media throughout the 
region?
    As our members of the subcommittee appear, I will interrupt 
the proceedings to give them an opportunity to at least offer 
opening remarks and submit remarks for the record. But I do 
want to move along very quickly today, and as such, I will turn 
immediately to our panelists and ask you to summarize any 
written testimony that you have. Rest assured, we do have a 
fair number of questions. Again, thank you all for 
participating and we will begin with Mr. Kenneth Tomlinson.
    [The prepared statement of Senator Sununu follows:]

              Prepared Statement of Senator John E. Sununu

    Good afternoon and welcome to today's hearing of the Subcommittee 
on International Operations and Terrorism of the Senate Foreign 
Relations Committee. Today we will examine the Broadcasting Board of 
Governors and evaluate whether we have found the right media for the 
message in the Middle East, a region whose importance to our country we 
all know well.
    We will have two panels of distinguished witnesses. Panel one 
includes Mr. Tomlinson, Chairman of the Broadcasting Board of 
Governors; Mr. Pattiz, Governor of the Broadcasting Board and Director 
of the Middle East Service; and Mr. Harb, News Director of Alhurra, the 
Middle East Television Network (METN). Panel two includes Mr. Ford, 
Director, International Affairs and Trade of the General Accounting 
Office; Dr. Telhami, Anwar Sadat Professor of Peace at the University 
of Maryland; former Ambassador Rugh of the Institute for the Study of 
Diplomacy, Georgetown University; and Dr. Ghareeb, Adjunct Professor of 
Middle East History and Politics, School of International Service, 
American University. Thank you for coming today to discuss the new U.S. 
Government-funded Alhurra, Radio Sawa, and the critical challenge of 
matching the media to the audience in the Middle East.
    To win the war on terrorism we must not only defeat the terrorists 
in the field; we must also defeat their ideas, and the anti-democratic, 
anti-freedom, and anti-American message they espouse around the world--
and most particularly in the Middle East. Today we will examine a key 
tool in our war on the terrorists' attempts to spread hate and 
intolerance: the Broadcasting Board of Governors and its Middle Eastern 
services--Alhurra satellite TV and Radio Sawa.
    A free, open and fair media is vital to a free nation and a lasting 
democratic process. Dissemination of the facts and open discussion of 
ideas are essential to the functioning of free institutions. The BBG 
plays a vital role in the promotion of our foreign policy because it 
promotes and sustains ``freedom and democracy by broadcasting accurate 
and objective news and information about the United States and the 
world to audiences overseas.''
    The BBG supervises all U.S. Government-funded non-military 
international broadcasting--in 54 languages to more than 100 markets 
worldwide. Its services include: Voice of America, Radio Free Europe/
Radio Liberty, Radio Free Asia, and the Office of Cuba Broadcasting 
(Radio and TV Marti). In 2002, the BBG also began broadcasting Radio 
Sawa to the Middle East, and in 2004, the BBG started its Alhurra 
satellite television broadcasts.
    The Board's total FY 2004 budget for all its activities is $592 
million, and the FY 2005 request is $569.3 million. The BBG has 
requested $42.7 million for FY 2005 for METN. The Congressional Budget 
Office and the BBG estimate METN will cost between $37 and $42 million 
annually from 2004-2008.
    The BBG transmits news, information, and accurate reports of U.S. 
Government policy, as well as thoughtful criticism, giving citizens of 
countries throughout the region the ability to judge for themselves, an 
essential foundation of freedom. Last week, here in the Foreign 
Relations Committee we held a series of hearings on the June 30 
transition date in Iraq that were a terrific example of the democratic 
process at work. Administration witnesses and nongovernment experts of 
distinction testified, and Senators from both sides of the aisle 
grappled with the tough issues we and the Iraqi people face in a 
dynamic discussion. BBG seeks to set a standard of solid journalism in 
a region where a history of government controlled media has left the 
public cynical and journalists too often seem to equate strident 
criticism of the United States with ``independent'' reporting.
    The BBG describes ``marrying the mission to the market'' as ``the 
fundamental strategy of U.S. international broadcasting today.'' The 
BBG must determine how it can best reach large audiences in complex, 
competitive media environments with news as well as ``perspectives on 
American culture and information on official U.S. Government positions 
and policies.'' The task is complicated by what is becoming an 
increasingly varied Middle Eastern broadcasting scene. While 
government-owned media still dominate national land-based TV and radio, 
satellite technology has created new stations that are competing 
vigorously.
    We will ask a number of questions. In our first panel discussion 
with Mr. Tomlinson, Mr. Pattiz and Mr. Harb, we will examine Alhurra TV 
and Radio Sawa as examples of innovation at the BBG. What media are 
most influential in the Middle East now: TV, radio, newspapers, the 
Internet? How does the BBG identify its audience? How is the audience 
segmented? How does BBG select the media and programming to reach the 
various audiences? How does BBG measure success? Might BBG's success in 
certain markets slow the growth of free, fair, open and privately owned 
local stations?
    On the second panel, Mr. Ford will give us an overview of GAO's 
recent work on the BBG. Dr. Telhami, Ambassador Rugh and Dr. Ghareeb 
are uniquely qualified to further our understanding of the political 
environment and media marketplace in which Alhurra and Radio Sawa 
operate. All three are distinguished authors with long experience in 
the region. What are the political as well as commercial dynamics of 
broadcasting companies in the Middle East now? What do journalists in 
the region see as their role and responsibilities? What are attitudes 
toward the U.S.? What do people think of Alhurra and Radio Sawa? How 
can the U.S. most effectively promote the development of free, fair and 
open media in the Middle East? How might Alhurra and Radio Sawa 
contribute to those goals?
    I would like to offer Senators Biden and Nelson a chance to make 
opening remarks, and then let us begin with Mr. Tomlinson. To ensure as 
much time as possible for discussion, I would ask witnesses to confine 
their remarks to about five minutes. Their testimony can be entered in 
the record in full.

STATEMENT OF HON. KENNETH Y. TOMLINSON, CHAIRMAN, BROADCASTING 
                       BOARD OF GOVERNORS

    Mr. Tomlinson. Thank you, Mr. Chairman. I will be brief. 
You have the statement for the record.
    I will point out that Norm Pattiz has both a film which is 
going to be fascinating insight into Alhurra, our new 
television voice, but we also have preliminary survey data from 
the region to show the kind of quick impact we have had in the 
region, as well as definitive survey data from Nielsen 
demonstrating the extraordinary success of Radio Sawa.
    I will also point out that last night for the first time in 
19 years, Norm Pattiz was not court side for a Lakers playoff 
game, which is an indication of the seriousness that he has 
brought to the table here. Because I assure you that in past 
years, he never would have missed a playoff game for such a 
hearing.
    To my left is Mouafac Harb, who is News Director of Radio 
Sawa and News Director of Alhurra. I was walking down the 
hallway of VOA today and someone stopped me and said, you know, 
I think Mouafac Harb might be the most important single person 
involved in broadcasting public diplomacy, and I really could 
not disagree with that. I am honored to be with both of these 
gentlemen.
    On February 14 of this year, with the enthusiastic support 
of President Bush and key leaders of the administration and the 
Congress, BBG launched its new Arabic language television 
network called Alhurra. Alhurra was created out in northern 
Virginia in a little more than 4 months, a state-of-the-art 
studio that we would be proud for anyone to see. But on that 
day that as we opened with the magnificent sets that Norm 
Pattiz was responsible for putting together, the extraordinary 
thing to me was the sea of Middle Eastern faces--news men, news 
women enthusiastically working to make this network a 
successful model of journalistic standards in this world.
    President Bush spoke of open debate and truth when he 
described what this network can mean to the people of the 
Middle East. The network will challenge the voices of hate and 
repression with truth and the voices of tolerance and 
moderation. Viewers will witness free and open discussions not 
just about the conflict in the Middle East, but also about 
subjects critical to that region's future--economic 
development, human rights, respect for minorities.
    Our competitive edge in the Middle East is our dedication 
to truth and free and open debate. People have asked from the 
beginning how in the world will you guys be able to compete 
with Al Jazeera and others out there. I contend that time and 
again Radio Sawa is demonstrating that it is first-rate. If you 
give accurate news, if people come to depend on the news, if 
they hear free and open debate, they will come to such a 
station.
    We are also proud of what we have done in other aspects of 
international broadcasting. Voice of America has been active in 
a number of different areas, which we will mention as we go 
along today. Especially important at Voice of America is a new 
daily news program to Iran, obviously, in Persian. It has been 
a terrific success and we are proud of it.
    Now, Radio Sawa has been a phenomenal success, and Norm 
will have a lot to say about that in terms of the Nielsen 
survey.
    We were asked repeatedly on Alhurra how are you going to 
know anyone is listening to you. I have never been involved in 
a project that I had more faith was going to be a success than 
the Alhurra project, but I am glad that we have some quick 
survey data indicating the initial impact. We will have more 
data in the summer. I am an old print journalist and my 
attitude, Mr. Chairman, toward some of this is the attitude of 
Mark Twain who said, ``figures lie and liars figure.'' But we 
do need the statistical indication of our presence there, and 
that we will give you today.
    The board also has been involved, in addition to our 
Persian initiative, in expansions at VOA in Indonesia. We have 
an important new service to Pakistan in Urdu language 
broadcasting that our colleague Steve Simmons of the Board of 
Governors has been a great force behind.
    We have a lot to tell you about and we look forward to your 
questions.
    I will end on just one quick note. We are frequently asked 
about coordination. We are frequently asked about the way we 
work with other aspects of the administration. Of course, 
Senator Biden, being the father of this broadcast board, put 
together a force that would, in fact, be a firewall and serve a 
unique role in communications around the world. But I have 
served four administrations in Washington, as the Director of 
the Voice of America, a member of the BIB board and the like, 
and I have never seen a better working relationship between the 
White House and international broadcasting than we have now. We 
have the White House Office of Global Communications to thank 
for that. They were enormously supportive and helpful in 
developing what we are doing at Alhurra.
    Let me close on this. We need to understand the importance 
of maintaining the strength of public diplomacy and the 
traditions of international broadcasting. I am convinced we 
will not be successful in our overall mission of delivering our 
message to the world if we fail to grasp that these are two 
different spheres and that they operate according to two 
different sets of rules.
    It is very important that government spokesmen take 
America's message to the world passionately and relentlessly. 
We should not be ashamed of public advocacy on behalf of 
freedom and democracy and the United States of America. 
International broadcasting, on a parallel and complementary 
track, is called upon to reflect the highest standards of 
independent journalism as the best means of demonstrating to 
international audiences that truth is on the side of democratic 
values.
    We in America are fortunate that telling the truth works to 
our long-term advantage. That is why international 
broadcasting, I believe, is so important in this country.
    We thank you for the invitation. We look forward to 
answering your questions, and I look forward to Norm's 
presentation because he usually does a pretty good job.
    [The prepared statement of Mr. Tomlinson follows:]

            Prepared Statement of Hon. Kenneth Y. Tomlinson

    Mr. Chairman and members of the subcommittee, we greatly appreciate 
the opportunity to appear before you today to talk about the efforts of 
the Broadcasting Board of Governors to communicate with the people in 
the Islamic world. I am joined by fellow board member Norman Pattiz, 
the father of Radio Sawa and an irrepressible force for international 
broadcasting, and by Mouafac Harb, the News Director for the Middle 
East Television Network. Together we hope to give you a full picture of 
the BBG's efforts to assist the war on terrorism, and become a 
continuously available source of news for the people of the Middle 
East.
    As this committee well knows, the BBG has greatly expanded its 
reach and broadcast hours to the Islamic world in the past three years. 
There has been literally an enormous increase in the availability of 
U.S.-sponsored news and information on radio and television to this 
region. Radio Sawa, Radio Farda, VOA-TV's Persian programming, and now 
the Middle East Television Network (MTN) are relative newcomers on the 
scene, but are making a big impact.
    On February 14 of this year, with the enthusiastic support of 
President Bush and key leaders of the Administration and Congress, the 
BBG launched its new Arabic-language television network called 
``Alhurra'' (``The Free One'' in Arabic). Even before this station went 
on the air, it was heavily criticized in the Arab world as a propaganda 
arm of the U.S. Government. It has been called a ``voice of the CIA'' 
whose aim is to ``brainwash Arabs'' and described as part of ``a long-
term plan to dominate the minds and ideas of Iraqis and Arabs.'' But 
Alhurra is none of these things. Its mission is that of all U.S. 
international broadcasting--to promote and sustain freedom and 
democracy by broadcasting accurate and objective news and information 
about the United States and the world.
    Through its adherence to Western journalistic standards, through 
its objective, accurate reporting, Alhurra can gain the credibility we 
need to build an audience and offer Middle Eastern audiences a new 
balanced view of world events. While criticism in the Arab press 
continues, we are connecting with the people--our target audience--and 
they are sending us hundreds of e-mails to welcome us. ``You are much 
needed to balance biased news controlled by those full of hatred to 
western world,'' reads one. ``This is the first step to fight the `hate 
culture' that feeds terrorism,'' says another. ``I hope your channel 
[will help] our Arab brothers . . . to tell the truth from all that is 
going on.''
    In a little more than four months, the BBG established a state-of-
the-art broadcast facility in Northern Virginia to house Alhurra. Since 
October some 900,000 feet of cable have been installed in this 
facility. But what is truly extraordinary is the sea of Middle Eastern 
faces--newsmen and newswomen--enthusiastically working to make this 
network a successful model of journalistic standards. Many of these 
individuals are well known media figures in the Middle East and gave up 
promising careers overseas to practice journalism with MTN.
    President Bush spoke of ``open debate'' and ``truth'' when he 
described what this network can mean to the people of the Middle East. 
The network will challenge the voices of hate and repression with truth 
and the voices of tolerance and moderation. Viewers will witness free 
and open discussions, not just about conflict in the Middle East, but 
also about subjects critical to that region's future--economic 
development, human rights and respect for minorities.
    Our competitive edge in the Middle East is our dedication to truth 
and free and open debate. We will provide an example of democracy and a 
free press in a media market dominated by sensationalism and 
distortion. That is also the basis for the success of the Voice of 
America's new Persian-language satellite television program ``News and 
Views'' to the people of Iran. Less than three months after that 
program was launched last summer, one independent survey showed ``News 
and Views'' was reaching a remarkable 12 percent of the country's over-
18 population.
    Typical of what creative broadcasting can do is the new segment 
launched by ``News and Views'' called ``Your Voice.'' Iranian viewers 
were invited to submit e-mails on the controversy surrounding the 
February 20th parliamentary elections--from the banning of candidates 
to calls for an election boycott. We opened a dialogue that is allowing 
Iranians to share their views with other Iranians--and the response has 
been extraordinary.
    My predecessors likewise brought innovation to our radio broadcasts 
that proved to be vital to the success of our Afghan Radio Network 
which broadcasts in Dari and Pashto, our youth-oriented Radio Farda to 
Iran, and Radio Sawa to the Arab world. When Norm Pattiz was in the 
process of creating Radio Sawa, he traveled throughout the Middle East 
to negotiate heretofore unattainable agreements for American AM and FM 
transmitters in Middle Eastern countries so that we could be heard on 
the radios of choice in the region.
    Radio Sawa has been a phenomenal success. A survey by ACNielsen 
research last fall demonstrated that Sawa has achieved market 
dominance--an average listenership of 42 percent in the important age 
group between 15 and 29--in key Middle Eastern countries.
    Radio Sawa faced the same skepticism as Alhurra before it was 
launched. Critics conceded Arabs might listen to our music, but not our 
news. Yet this same ACNielsen survey found that, in a region where 
skepticism towards the U.S. is high and boycotts of U.S. products are 
common, Radio Sawa was found to be a reliable source of news and 
information by 73 percent of its weekly listenership.
    In a matter of months, Sawa built the largest radio news-gathering 
operation in the Middle East presenting up-to-the minute news 24 hours 
a day and over 325 newscasts per week. It was the very reliability of 
our Sawa news that made us the leading source for news in Iraq even as 
we went to war there.
    News also accounts for the surprising audience that ACNielsen 
documented for Sawa among older listeners in target countries in the 
Middle East--better than 20 percent among the general population over 
30. Mr. Chairman, I will submit for the record highlights of this 
survey.
    Under the leadership of Mouafac Harb, Sawa's outstanding News 
Director who also assumes that post for Alhurra, the station also is 
the source of a host of shows that explore freedom and democracy.
    In Indonesia, the Voice of America has enhanced its radio and TV 
offerings to reach this large Islamic population. ``Jurnal VOA,'' a 25-
minute live, interactive news program, appears on Indonesia's ``Metro 
TV.'' Another TV offering, ``Doing Business,'' airs every Monday on 
TVRI. ``VOA Direct Connection,'' a half-hour weekly radio program, airs 
each Friday evening on more than 40 satellite affiliates around 
Indonesia.
    This month, we launched a new one-hour interactive talk show, 
``Salam VOA,'' that will air on JTV in Surabaya. In addition, VOA will 
supply Trans TV with a weekly 5-minute U.S. election wrap-up, to air on 
its morning news program. We anticipate doubling our radio broadcasts 
to five hours a day and increasing TV from one to five hours a week.
    The Board's latest initiative is a new youth-oriented Urdu 
broadcast to Pakistan where listeners would be served contemporary 
Pakistani and western music along with news and current affairs 
features and subjects ranging from education to business to health. We 
hope to increase our hours of broadcast as well as the power of our 
broadcasts to this key country in the war on terrorism.
    Just this week we began broadcasting to Iraq over channel 12 in 
Baghdad, available through terrestrial transmission. Iraqis also have 
access to Alhurra's programming delivered via Arabsat. In the weeks 
ahead, we will be phasing in special programming for Iraq, including 
newscasts, talk shows and roundtables. Additional terrestrial 
transmitters in Basra and three other cities should be on-line in the 
near future.
    Much of criticism of Alhurra--again before we even launched--was 
that we would be the mouthpiece of the U.S. Government, sending cleared 
messages and propaganda to taint Arab minds. None of our programming in 
any part of the world seeks to do this. VOA's long-standing Charter, 
and more recently the U.S. International Broadcasting Act, guard 
against this. But we must demonstrate this every day to our audiences 
and earn their trust and loyalty over time. This does not mean that we 
ignore our mission to promote and sustain freedom and democracy. Our 
programming frequently features U.S. policymakers and programming that 
accurately explains the U.S. policy measures that so often are maligned 
in the Middle East.
    In continuing all of our broadcast initiatives, we will strive to 
give our listeners the same tool we have always provided through 
international broadcasting: the information they need to compare their 
political, economic, and social systems to those that exist elsewhere 
in the world, and to assess their own leadership.
    In creating a broadcast environment that also reflects the foreign 
policy priorities of the United States, we look to the Department of 
State for guidance, expertise, and participation in our programs. I 
have served four Administrations in Washington--all of them connected 
with international broadcasting. Never have I seen a better working 
relationship between the White House, the State Department; and 
international broadcasting.
    The White House Office of Global Communications has been 
extraordinarily supportive in helping us assess priorities and expand 
what we are doing as in Middle East Television. This office also has 
been a major enabler in helping the BBG to gain access to policy makers 
for interviews on major world events.
    Under Secretary Margaret Tutwiler, who represents the Secretary at 
Board meetings, has been deeply interested in broadcasting's strategic 
goals and priorities and is a full participant in Board decision-
making. Our diplomats overseas also have helped-us gain valuable 
transmission resources in countries to which we broadcast.
    We need to understand the importance of maintaining the strength of 
public diplomacy and the traditions of international broadcasting. I am 
convinced that we will not be successful in our overall mission of 
delivering our message to the world if we fail to grasp that these are 
two different spheres and that they operate according to two different 
sets of rules.
    It is very important that government spokesmen take America's 
message to the world--passionately and relentlessly. We should not be 
ashamed of public advocacy on behalf of freedom and democracy and the 
United States of America. International broadcasting, on a parallel and 
complementary track, is called upon to reflect the highest standards of 
independent journalism as the best means of demonstrating to 
international audiences that truth is on the side of democratic values.
    Thirty years ago, RFE/RL and VOA began broadcasting the Watergate 
hearings. Those broadcasts caused heartburn for many in Washington, but 
looking back we see they constituted a veritable civics lesson on the 
importance of separation of powers and rule of law. Over the years I 
have heard so many citizens of post-communist countries tell how those 
broadcasts helped them understand the real meaning of freedom and 
democracy. Alhurra is fortunate to make its debut in a Presidential 
election year. It will cover the U.S. race from one end to the other, 
showing day by day how our election process works.
    We in America are fortunate that telling the truth works to our 
long-term advantage. That is why international broadcasting is so 
important to this country.
    Mr. Chairman, this concludes my formal statement. I will be happy 
to answer any questions that your subcommittee might have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Sununu. Thank you, Mr. Tomlinson.
    At this time, I would like to call on the subcommittee's 
ranking member, Senator Nelson, for his opening statement.

                OPENING STATEMENT OF SENATOR BILL NELSON

    Senator Nelson. Thank you, Mr. Chairman.
    A large scale international television and the Internet, I 
think, is essential in winning the war on terrorism. When we 
hear the commentary in the last few days of what is, in fact, 
happening on the ground being, to be charitable, misconstrued 
by some of the Arab television networks, it becomes all the 
more important that the interests of the free world have an 
ability to communicate with people of different civilizations.
    So in the course of this hearing, which I am going to have 
to be in and out of, Mr. Chairman, we are going to be examining 
whether investment and recapitalization of the transmission 
capabilities are needed and increasing our television 
programming and broadening our outreach to the Muslim world. 
This is most timely that you are having this subcommittee 
hearing.
    We have already expanded our services to the region in 
Arabic and Persian. This committee is one which voted to 
increase the President's budget for broadcasting when we moved 
the Foreign Assistance Authorization Act earlier this year.
    So thank you for the opportunity and I thank the witnesses 
for coming and testifying to us.
    Senator Sununu. Thank you, Senator Nelson.
    At this time, we are pleased to take the testimony from 
Norman Pattiz. Welcome.

  STATEMENT OF HON. NORMAN J. PATTIZ, GOVERNOR, BROADCASTING 
                       BOARD OF GOVERNORS

    Mr. Pattiz. Thank you very much, Mr. Chairman and members 
of the subcommittee, Senator Nelson. It is a pleasure to be 
here.
    I will just expand on what Chairman Tomlinson said about my 
missing the first Lakers playoff game in 18 years in order to 
be here. That is true, but I am a broadcaster by trade and I 
considered this an honor and a privilege to have been appointed 
by two Presidents of different parties to do something that is 
arguably more important than it has ever been, or as important 
as it has ever been certainly in our history, that takes 
advantage of what I have done for a living all my life in a 
country that has been very, very good to me. So go Lakers, but 
priorities are priorities, and this is where I need to be and 
this where I am.
    I got involved in the Broadcasting Board of Governors about 
3 years ago. I was sworn-in in November of 2000, and at the 
time, I was the only broadcaster on the board. I am happy to 
say that we now have a number of people with broadcast and 
journalism experience, but I was the only broadcaster. As such, 
I was asked to serve as the co-chair of the Language Review 
Committee, which is the committee that is mandated by Congress 
to, on an annual basis, look at how we deploy our resources 
across the 60-plus language services that we broadcast in every 
year.
    One area stood out when I was taking a look at the various 
areas that we were funding, not because of what we were doing, 
but because of what we were not doing. That area was the Middle 
East. At the time, our total commitment to the Middle East was 
7 hours a day of Arabic language programming from the Voice of 
America Arabic Service, transmitted on short wave which 
practically nobody listened to, on a very weak medium wave 
signal out of the Island of Rhodes. That was our commitment to 
Middle East broadcasting.
    I reported that to the board and the board in so many words 
said, congratulations, Norm, good job. We are now forming a 
Middle East committee. You will be the chairman of it. Go fix 
it.
    So within a month, I was on my way to the Middle East with 
some staffers to assess what was possible in the region, and a 
lot was possible. But first, impressions of what was going on 
in the region. Taking a look at the media environment in the 
region--and I am not saying this is what takes place in every 
aspect of the media environment--it is not uncommon at all to 
hear hate-speak on radio and television, incitement to 
violence, disinformation, government censorship, and 
journalistic self-censorship. It is within that environment 
that the Arab street gets its impressions not only of U.S. 
policy, which they despise, but of our culture, our society, 
our people, our values. We thought we needed to do a much 
better job of presenting accurately what our policies are so 
that our audiences could make more informed decisions. And we 
need to reach the largest possible audience that we could 
reach.
    There was a tremendous opportunity with Radio Sawa, which 
at the time we did not know was going to be ``Radio Sawa.'' We 
knew it was going to be something in Arabic on the radio.
    I met with heads of state, ministers of information, 
academics, journalists. We did some focus groups in several 
countries. And it was obvious that there was an opportunity to 
reach a very large percentage of the population, the largest 
percentage of the population actually, which is the 30 and 
under segment that is underserved by the media and is 
incredibly important to the long-term interests of the United 
States. By putting something on the air that was contemporary; 
that took advantage of the best in Western broadcasting 
techniques and technology; that utilized AM, FM, digital audio, 
satellite technology; and that fulfills the role of ``marrying 
the mission to the market;'' we attracted an audience for our 
primary mission, which is a journalistic mission.
    So we put Radio Sawa on the air, which was a mix of Western 
and Arabic music, heavily researched. Let me just say that 
Radio Sawa and Alhurra are the most researched projects in the 
history of international broadcasting. The fact of the matter 
is I cannot do a project if I do not have the research with 
which to determine what the opportunities are within the 
marketplace, who it is we are trying to reach, who it is we are 
trying to communicate with, and what those messages ought to 
be. If you do not have that, then you are shooting blanks.
    So we got a lot of information to find out what it would 
take to resonate with our audience because radio, unlike 
television, is a very different medium. Radio is a medium of 
formats, and people tend to listen to their favorite radio 
stations to the exclusion of other radio stations. Television 
is very different. It is a medium of programs, and 
consequently, people tune into various programs at various 
times because they want to see those programs. But they are not 
intrinsically loyal to a particular television station. It does 
not define who they are. It is different with radio. A lot of 
people define who they are by the radio station they listen to. 
I dare say if I stepped into any one of your automobiles today 
and checked the settings on your radios, I would know something 
about who it was who was driving that car.
    So radio has a very unique way of connecting primarily with 
the 30 and under audience, and Radio Sawa has used all of that 
knowledge that we have to deliver a very, very large audience 
to news and information that is second to none. We broadcast 
over 5 hours of original news and informational programming 
every single day. We break for special events when events on 
the ground warrant it. We will go for 4, 5, 6 hours 
continuously in order to fulfill our journalistic mission. And 
from the very beginning, we knew that Sawa was going to be 
successful based upon the original research that we were doing 
and the tracking research that we do on a regular basis.
    We have had a lot of negative information passed around in 
the press in the Middle East and some over here about the 
chances for success of Alhurra. I have not been too terribly 
concerned about that, nor do I think the chairman or Mouafac 
have been terribly concerned about that, because frankly it is 
everything we heard about Radio Sawa. The difference is when we 
started Radio Sawa, we did it market by market, and when we 
started Alhurra, we did it via satellite throughout the whole 
region. So the entire media world knew we were coming and had 
their thoughts, and they were giving us their thoughts well in 
advance of us even being on the air.
    Having said that, knowing that these are supposed to be 
brief remarks--and I have probably worn out my welcome and 
there is a short video we want to show you--I want to give you 
some information that has just been completed on Radio Sawa and 
on Alhurra. We have been doing research on Sawa for a number of 
years now. Well, for 2 years. We have been on the air for 2 
years. And Sawa has shown that it can generate a significant 
audience, and we have the research result--and I believe we 
have supplied it to the committee--of the latest Nielsen study 
showing that Sawa, in terms of 15-plus numbers, has a very 
large share across the region. In terms of its target audience 
numbers, it has an even larger share across the region. In 
terms of reliability and credibility, it is viewed very highly 
by its listeners for the reliability and credibility of the 
news, coming from an obviously American radio station.
    I will just say this. Shortly after going on the air in 
Amman, Jordan, we did a research study that showed that within 
30 days Sawa was the favorite radio station of over 50 percent 
of our target audience and was listened to weekly by 90 percent 
of our target audience. But in terms of news credibility, only 
1 percent of our audience, a month after it went on the air, 
thought we were reliable and credible. Six months later, we 
still had those large numbers for ``favorite radio station'' 
and those large numbers of people who were listening every 
week, but in terms of news and information reliability and 
credibility, the number had gone up to 40 percent.
    So the point is to those people who will say if you cannot 
trust the messenger, do not trust the message--our mission is 
to walk the walk. Our mission is to give them an example of 
what a free press is in the American tradition, and we have 
demonstrated with Radio Sawa that they will listen and they 
will be affected. As a matter of fact, that same Nielsen 
research shows that, by a margin of about 2 to 1, slightly 
under 2 to 1, Radio Sawa listeners have a more positive view of 
the United States of America than do non-Radio Sawa listeners.
    This is a long-term project. We are late in the game. 
Nothing is going to get changed overnight, but I think we are 
definitely having an effect with Sawa.
    As far as Alhurra is concerned, since we have demonstrated 
the fact that a U.S.-sponsored radio station can be viewed as 
reliable and credible and very popular amongst its audience, 
then we ought to engage in television where the real game is 
taking place and where 90 percent of the Arab population gets 
its news and information.
    So we have put together a 21st century news and 
information-driven television station. It is news and 
information-driven but it is not all news and information. We 
also have magazine shows. We have travel shows, shows on health 
and fitness, shows on fashion, shows on food, a number of 
different kinds of programming to attract a wider body of 
viewers so that we can affect them with our news and 
information programming.
    Every hour at the top of the hour and at the bottom of the 
hour, we do news even when we are doing the programming that is 
not primarily news and information. In prime time, we do two 1-
hour live newscasts. Obviously, we break for breaking stories, 
as we have done on many occasions over the last few weeks, to 
cover the breaking stories that are going on within the region.
    But the question that we get asked over and over again, 
even though we have only been on the air for 2 months and we 
have only been 24 hours for about 3 weeks, is who is listening, 
who is watching. Well, it is early. We have research in the 
field right now that will ask many, many, many questions. But 
in order to get a feel for where we are, we contracted with 
Ipsos-Stat, which is the French company that does research in 
the Middle East and provides much of the audience research for 
television throughout the Middle East. We contracted with them 
to do a telephone survey in several cities throughout the 
region to get a sense of whether or not people had even heard 
of us, whether people were watching us, and what they felt 
about us.
    This is very preliminary stuff, and it is really the 
information that we would normally just use internally to let 
us know how we are doing and what we need to focus on. But it 
came back a few days ago, and I wanted to share it with you 
because, quite frankly, it is very impressive. It is more 
impressive than we anticipated.
    This is a telephone survey, so it is people who have 
telephones and it is also people who have access to satellite 
television. Now, you have 300 million people in the region. And 
170 million of them are over the age of 15, and about 40 
percent of those people have satellite access. So you are 
talking about in excess of 70 million people here. So this is a 
big chunk of people.
    In taking a look at individual cities, let me just tell you 
which cities we looked at because I am going to mention them by 
country. But I want you to know which cities we actually looked 
at because these are more city numbers than country numbers. In 
Egypt, we surveyed Cairo and Alexandria. In Jordan, we surveyed 
Amman, Irbid, and Zarka. In the Emirates, we surveyed Abu Dhabi 
and Dubai. In Lebanon, Beirut. Kuwait, Kuwait City. Saudi 
Arabia, Jeddah and Riyadh. Syria, Damascus and Aleppo.
    The information is as follows. In terms of weekly 
listening, persons 15-plus, in Egypt, 18 percent; in Jordan, 37 
percent; in Lebanon, 40 percent; in the Emirates, 19 percent; 
in Kuwait, 44 percent; in Syria, 29 percent; and in Saudi 
Arabia, 19 percent. These are significant numbers for a station 
that has been on the air for a very, very short time, and has 
only been on the air 24 hours a day for a very, very short 
period of time.
    The fact that we got all that negative publicity was 
probably a blessing in disguise. I think it is very interesting 
that they issued a fatwah against us in Saudi Arabia, yet in 
spite of that, we can show that 19 percent answered 
affirmatively.
    Let me give you a sense of news reliability because we 
asked those same people how reliable do you feel the news on 
Alhurra is. In the categories of ``very reliable'' and 
``somewhat reliable,'' in Egypt, 40 percent said reliable; in 
Jordan, 44 percent; in Lebanon, 54 percent; in the United Arab 
Emirates, 65 percent; in Kuwait, 61 percent; in Syria, 37 
percent; and in Saudi Arabia, 70 percent.
    So this is real, real preliminary stuff, but it is an 
indicator and it is a good indicator. We are there, and we are 
a player in this marketplace right now. We will have full and 
complete research within the next 45 to 60 days which is being 
done right now, and then we will have another Nielsen survey 
which we will be doing in June and July.
    With your indulgence, what I would like to do is direct 
your attention to that monitor over there and give you a sense 
of what this station looks like. We have taken a short 
promotional video and edited it down to an even shorter 
promotional video with some English narration, and added some 
recent coverage in the American media--a piece that was done on 
the News Hour that shows you how the American media has covered 
what we are doing--and then some very quick cuts of our people 
in the field doing the various types of programming, the live 
news, the roundtable discussions, the interviews, and so forth. 
This piece runs just a little bit over 3 minutes, so with your 
indulgence, Mr. Chairman, I would like to play that for you.
    Senator Nelson. Was that fatwah issued with the approval of 
the Government of Saudi Arabia?
    Mr. Harb. I do not think it was, but the person who issued 
the fatwah is a government employee.
    Senator Nelson. It was.
    Mr. Harb. Yes, sir.
    Mr. Pattiz. He is a government employee. I do not know that 
you could get the Saudi Arabian Government to say it issued a 
fatwah, but this is a religious leader who is in the employ of 
the Saudi Government.
    Senator Nelson. And did that fatwah get issued before the 
most recent bombing in Saudi Arabia?
    Mr. Pattiz. I think it was issued before we ever hit the 
air. Do not watch, do not participate, do not buy commercials, 
which I thought was interesting since we are non-commercial. If 
memory serves me, that was something that was issued before we 
had even started broadcasting on February 14, or at least 
shortly thereafter.
    Senator Nelson. Maybe they are changing their tune, Mr. 
Chairman, after the most recent bombing.
    [Video shown.]
    [The prepared statement of Mr. Pattiz follows:]

              Prepared Statement of Hon. Norman J. Pattiz

    Mr. Chairman and Members of the Committee, I welcome the 
opportunity to appear before you today to discuss our most recent 
programs in the Middle East and to give you a quick video glimpse of 
some of the stories covered by Alhurra as well as the quality of its 
production.
    As Mr. Tomlinson mentioned, Alhurra has been on the air for just 
over two months. We have plunged into a Middle East media environment 
that is rich in satellite programming and critical, breaking news. But 
it is not an environment that is steeped in same traditions of 
journalism and objective news analysis that we are familiar with. 
Television and radio broadcasters in the region are, for the most part, 
government owned, and reflect a particular point of view that can be 
destructive to opinion about the United States. We hope to make a 
difference by filling the gap in accurate, objective news coverage.
    Before I play the short video clip on Alhurra, I would like to 
emphasize that the products the BBG has initiated over the past three 
years were heavily researched before we invested in them. We believe we 
can be most successful when we tailor our program mix to the audience 
we are trying to reach, using music and other non-news feature 
programming when appropriate. We must also broadcast in a manner that 
is sensitive to the culture and traditions of our audiences. Our 
formats must be appealing, and our programs compelling and 
technologically state-of-the-art in order to compete. In the Middle 
East, while audiences lack objective information about the United 
States and our leadership in the world, there is no lack of satellite 
stations that are competing with us for the same audience. We must set 
ourselves apart, and I believe that Radio Sawa and Alhurra television 
are doing that.
    For the development of Radio Sawa, we traveled to the region and 
identified a target audience of the large portion of the population 
that is under the age of 35. We researched what programming would draw 
them to an AM or FM station, and when we found they would be attracted 
by modern music, we researched their music preferences. This music-
based format, along with features designed to appeal to young 
audiences, provides the foundation for our news and information 
programming. So far, it has worked. As Chairman Tomlinson mentioned in 
his statement, the audience listens, and they listen for the news.
    Let me add another survey result to what you have already heard 
about Sawa listening. In a survey conducted in Morocco--Radio Sawa's 
newest market in the Middle East--in February 2004, Nielsen found that 
72 percent of the general population over the age of 15 listened to 
Radio Sawa. Sawa is even stronger in its 15 to 29 core age group. Among 
this market segment, Sawa showed a listening rate of 87.5 percent. The 
rate of listening among audiences over the age of 30 is 63.5 percent, 
and 77 percent of weekly listeners found Sawa's news reliable.
    The success of Radio Sawa helped fuel the creation of Alhurra, our 
television broadcast to the Middle East. After funding first became 
available in April 2003, we assembled a highly skilled team of 
professionals to take on the daunting task of getting a 24 hour a day 
station on the air by the beginning of 2004. After months of overcoming 
the many daily challenges that came our way, we launched the program on 
February 14. We believe we have a sophisticated product that will 
compete favorably with the well-established, and well-funded, satellite 
stations that exist in the region.
    The BBG's use of research also applies to program delivery, which 
can also pose major diplomatic and engineering challenges. As you know, 
we are navigating a world where all transmission options are not 
uniformly available or utilized in every region. Not only do we ``marry 
the mission to the market'' when we develop our program content, but we 
also do so when we choose transmission options. Some markets still 
require shortwave delivery. Other markets, as in the Middle East and 
surrounding regions, are much like the U.S. market: they listen to AM 
and FM radio, and get much of their news from television. Gaining 
access to AM and FM frequencies requires permission from foreign 
governments to install or lease transmission within their boundaries. 
Intense effort from the BBG, together with committed assistance from 
the State Department, has provided a network of about 20 AM and FM 
transmitters from Morocco to Kuwait to support Radio Sawa, and is 
working to establish terrestrial transmission in Iraq.
    I'd now like to play a short video which will give you a clear idea 
of the substance and flavor of Alhurra.

    Senator Sununu. Thank you very much for your presentation.
    Mr. Harb, welcome.

STATEMENT OF MOUAFAC HARB, NEWS DIRECTOR, ALHURRA, MIDDLE EAST 
      TELEVISION NETWORK, BROADCASTING BOARD OF GOVERNORS

    Mr. Harb. On behalf of my colleagues at Radio Sawa and 
Alhurra, I thank you for inviting me to testify today. I am 
honored to have been given a role in establishing both Radio 
Sawa and Alhurra television. We have been fortunate in the 
leadership and support we have received from the 
administration, Congress, and the Broadcasting Board of 
Governors.
    It has been deeply satisfying to see Sawa and Alhurra 
develop from inspiration to reality with staff, stations, and a 
steadily growing audience.
    The mission of this new Middle East television network is 
to broadcast accurate, timely, and relevant news and 
information about the region, the world, and the United States 
to a broad Arab-speaking audience. By doing this, we seek to 
foster freedom and democracy in the Middle East.
    That is a tall order. I am proud to tell you that we are 
beginning to fill it. All of us who work in these operations 
can feel it, and the data we have gathered--and Governor Pattiz 
just mentioned a little bit about it--although early, appear to 
back that up.
    It will take time, but I am confident we will succeed.
    Until Sawa and Alhurra began broadcasting, people in the 
Arabic-speaking world got a steady diet of variations of just 
one story: Arab humiliation. The actual events are different 
from story to story and day to day. But they all carry this one 
message. It tells them that the Americans and the Israelis are 
the source of all the trouble in their lives. They bear no 
responsibility themselves.
    News outlets in the Middle East, especially television news 
outlets, see themselves as mirrors of public opinion and their 
audience's emotions. So they come at their reporting with a 
point of view already in place, and as a result, they broadcast 
material that inflames viewers against America.
    In the past few years, the Middle East has been a two-
channel television market when it comes to news and 
information. The ratings for these two channels have been 
largely determined by one person and not by good journalism, 
and that person is Osama bin Laden. He knows neither channel 
wants to be frozen out and he plays that for all it is worth, 
rewarding one or the other with an exclusive tape of his latest 
threats. It is not about going out to find a scoop and go after 
a story. You wait in your newsroom praying for a tape to show 
up from al-Zarqawi or Osama bin Laden and then all American 
networks and Western networks will carry the message.
    Well, it is not a two-channel market anymore, and the new 
player does not need to please bin Laden. Since February 14, 
Alhurra has brought a new idea to journalism in the Middle 
East--telling the truth. We do our work the way it is supposed 
to be done. We play it straight and we behave like news 
professionals because that is what we are.
    As Mr. Pattiz mentioned, we were businesslike in our 
approach. We are heavily researched and we studied our market 
from Morocco to the Persian Gulf. We used what we learned to 
shape our product. What came out was the region's first news 
and information channel dedicated to telling the story 
completely and accurately. That means going beyond just 
reporting what happened. We provide background and context to 
explain why something happened and what the ramifications might 
be.
    An example of this happened a couple of weeks ago in our 
coverage of the assassination of Hamas leader Abdel Aziz 
Rantissi. Alhurra was ending one of its hour-long newscasts 
when the story broke. We immediately reported it on the 
newscast. Then we followed up the initial report with 5 hours 
of live coverage, including reaction and analysis from around 
the world and a look at what this would mean for the future of 
Hamas, the Palestinian people, and Israeli/Palestinian 
relations.
    You cannot do that kind of work with amateurs. We have been 
able to recruit the best and the brightest, real pros from 
inside and outside the Middle East, from the United States as 
well. On the editorial side, most of the people are from the 
region and were hand-picked to be representative of the wide 
territory we serve.
    Everyone we have hired shares our sense of journalistic 
values. In fact, during the first round of interviews that I 
have conducted myself, many of them asked me if Alhurra would 
be pure propaganda and if it could really be free, especially 
if it was funded by the government. My answer, of course, was 
it will be free. The fact that they were asking this question 
and they were concerned about this, they had just passed a 
major step for getting the job.
    For some of my colleagues, joining the staff of Alhurra 
involved personal sacrifice, moving half a world away from 
family and friends to work for an organization that some people 
back home have been taught to believe is their enemy. I work 
with courageous people.
    Alhurra has been on the air only 2\1/2\ months. In that 
time, the Middle East has endured some of the toughest news 
stories of the decade. Alhurra has been there to cover them. We 
were the first to report on a number of stories, and we have 
garnered exclusive interviews. We created a program schedule 
for Alhurra that is flexible enough that we can break into 
regularly scheduled programming to cover breaking news if it is 
warranted.
    Also in that short period of time, we have been on the 
receiving end of a lot of unfocused criticism from our 
competitors and their keepers. That tells us that we have their 
attention. It is very important to mention here that most of 
the vicious articles that were directed at Alhurra came before 
we launched Alhurra and they came from media outlets funded by 
so-called friendly Arab governments. I think Alhurra and Radio 
Sawa were the first attempt by the United States to reach out 
directly to the Arab audience.
    Television is a real ``me too'' industry. If a program 
succeeds on one network, you are likely to see copies start 
popping up on the other ones. This is true everywhere.
    We are working to establish the gold standard that the 
other guys will want to rip off: the best technology, the 
finest professionals, the most innovative programming, the most 
eye-catching sets that you saw on the video, and the most 
compelling visuals. Our brand is freedom and democracy. We want 
them to follow us there.
    Thank you again for allowing me to appear before you today. 
I will be happy to answer any questions you may have.
    [The prepared statement of Mr. Harb follows:]

                   Prepared Statement of Mouafac Harb

    Let me first thank you for inviting me to testify today. I am 
honored to have been given a role in establishing both Radio Sawa and 
Alhurra television. We have been fortunate in the leadership and 
support we have received from the Administration, the Congress, and the 
Broadcasting Board of Governors.
    It has been deeply satisfying to see Sawa and Alhurra develop from 
inspiration to reality with staff, stations, and a steadily growing 
audience.
    The mission of this new Middle East Television Network is to 
broadcast accurate, timely and relevant news and information about the 
region, the world, and the United States to a broad, Arabic-speaking 
audience. By doing this, we seek to foster freedom and democracy in the 
Middle East.
    That's a tall order. And I'm proud to tell you that we are 
beginning to fill it. All of us who work in these operations can feel 
it, and the data we've gathered--although early--appear to back that 
up.
    It will take time, but I am confident we will succeed.
    Until Sawa and Alhurra began broadcasting, people in the Arabic-
speaking world got a steady diet of variations of just one story: Arab 
humiliation. The actual events are different from story to story and 
day to day. But they all carry this one message. It tells them that the 
Americans and Israelis are the source of all the trouble in their 
lives. They bear no responsibility themselves.
    News outlets in the Middle East, especially television news 
outlets, see themselves as mirrors of public opinion and their 
audience's emotions. So they come at their reporting with a point of 
view already in place, and as a result they broadcast material that 
inflames viewers against America.
    In the past few years, the Middle East has been a two-channel 
television market when it comes to news and information. The ratings 
for these two channels have been largely determined by one person and 
not by good journalism: Osama bin Laden. He knows neither channel wants 
to be frozen out, and he plays that for all it's worth, rewarding one 
or the other with an ``exclusive'' tape of his latest threats.
    Well, it's not a two-channel market anymore, and the new player 
doesn't need to please bin Laden. Since February 14, Alhurra has 
brought a new idea to journalism in the Middle East--telling the truth. 
We do our work the way it's supposed to be done. We play it straight, 
and we behave like news professionals because that's what we are.
    As Mr. Pattiz mentioned, we were business-like in our approach, and 
we studied our market from the Strait of Gibraltar to the Persian Gulf. 
We used what we learned to shape our product. What came out was the 
region's first news and information channel dedicated to telling the 
story completely and accurately. That means going beyond just reporting 
what happened. We provide background and context to explain why 
something happened and what the ramifications might be.
    An example of this happened a couple of weeks ago in our coverage 
of the assassination of Hamas leader Abdel Aziz Rantissi. Alhurra was 
ending one of its hour-long newscasts when the story broke. We 
immediately reported it on the newscast. Then we followed up the 
initial report with five hours of live coverage, including reaction and 
analysis from around the world, and a look at what this would mean for 
the future of Hamas and Israeli/Palestinian relations.
    You can't do that kind of work with amateurs. We've been able to 
recruit the best and the brightest--real pros from inside and outside 
the Middle East. On the editorial side, most of the people are from the 
region and were hand-picked to be representative of the wide territory 
we serve.
    Everyone we've hired shares our sense of journalistic values. In 
fact, during the first round of interviews, many of them asked me if 
Alhurra could really be free if it was funded by the government. My 
answer, of course, was yes. And if they were astute enough to be 
concerned about this, they had just passed a major test for getting the 
job.
    For some of my colleagues, joining the staff of Alhurra involved 
personal sacrifice--moving half a world away from family and friends to 
work for an organization that some people back home have been taught to 
believe is their enemy. I work with courageous people.
    Alhurra has been on the air only two and a half months. In that 
time, the Middle East has endured some of the toughest news stories of 
the decade. Alhurra has been there to cover them. We were the first to 
report on a number of stories and we've garnered exclusive interviews. 
We created a program schedule for Alhurra that is flexible enough that 
we can break into regularly scheduled programming to cover breaking 
news if it is warranted.
    Also in that short period of time, we've been on the receiving end 
of a lot of unfocused criticism from our competitors and their keepers. 
That tells us that we have their attention.
    Good. We want that.
    Television is a real ``me too'' industry. If a program succeeds on 
one network, you're likely to see copies start popping up on the other 
ones. This is true everywhere.
    We're working to establish the gold standard that the ``other 
guys'' will want to rip off--the best technology, the finest 
professionals, the most innovative programming, the most eye-catching 
sets, the most compelling visuals. Our brand is freedom and democracy. 
We want them to follow us there.
    As I said earlier, this will take time, but we will succeed.
    Thank you again for allowing me to appear before you today. I will 
be happy to answer any questions you may have.

    Senator Sununu. Thank you, Mr. Harb.
    Let me begin the questioning with Mr. Tomlinson. Even here 
in the United States we have disagreement and discussion 
domestically about our policies overseas, whether it is the 
peace process or the current situation in Iraq or any other 
issue that affects the Middle East. Does that make it more 
difficult for the Board of Governors to carry out their mission 
in the region, the fact that we have policy disagreements here 
at home?
    Mr. Tomlinson. I do not think so, Mr. Chairman. Twenty-some 
years ago, I came to town as the Director of the Voice of 
America in the early days of the Reagan administration at the 
height of the cold war. My first observation about what we were 
doing was people were trying to get the Voice of America to 
speak with one voice. And I said you cannot understand American 
democracy, you cannot understand what this country is all about 
if you try to speak with one voice, because we have to reflect 
the voices of America across the political spectrum. We can do 
so in such a way as to emphasize majority opinion. We do not 
have to be a slave to making sure we put forward divisions in 
American society.
    But we have a very strong administration. We have very 
strong feelings about some of the things the administration is 
doing. I think by enabling people to see how we operate that 
they will see how democracy could operate in their own 
countries.
    I often go back to the fact that in the early 1970s or mid-
1970s, Radio Free Europe and Voice of America made the decision 
to broadcast the Watergate hearings live. There was a lot of 
consternation about that because people were saying why are we 
exposing to the Communist world divisions in American society. 
The fact of the matter is, after the fall of the Berlin Wall, I 
had so many people in Eastern Europe, so many from the former 
Soviet Union say to me, you know, broadcasting those hearings 
was absolutely essential to demonstrating to us what democracy 
is really all about because, after all, democracy is about the 
rule of law. Democracy is about the separation of powers. 
Democracy is about concepts that you can only understand 
sometimes when you see it in action. That is why, as I was 
saying earlier, I am so happy we are launching Alhurra in the 
year of a Presidential election.
    Senator Sununu. Is there a danger that the BBG's 
Government-supported broadcasting will ultimately make it more 
difficult for private, independent stations to develop in the 
Middle East?
    Mr. Tomlinson. I do not think so because I think we 
establish a model. We are very proud of the competence of our 
news operation. I was so proud seeing that film because it 
reflected what I have seen out there in northern Virginia. I am 
so proud of this colleague here and the many people who serve 
with him.
    We set a standard and I think the standard is going to come 
to be seen as what broadcast journalism should be, as opposed 
to false reporting and sensationalism for the sake of stirring 
people up. What we do is real journalism. In putting forth this 
standard, I hope that when local entities begin broadcasting, 
that they will go with our standard as opposed to the Al 
Jazeera standard.
    Mr. Pattiz. Can I get a piece of that?
    Mr. Tomlinson. Why certainly.
    Senator Sununu. Mr. Pattiz, please.
    Mr. Pattiz. Thank you.
    Mr. Tomlinson. Just so long as you agree with me.
    Mr. Pattiz. I never disagree with you, Mr. Chairman, never 
publicly anyway.
    I cannot see any instance where the success of projects 
like Radio Sawa or Alhurra or any of the other projects that we 
do around the world would have any kind of a chilling effect on 
local media. The fact of the matter is it should have quite the 
opposite effect. As a businessman, when I go out and put a 
radio program or a format or a new station or what have you out 
on a market, I take a look at that market and I see what is 
working and I see how many people are watching it. I see what 
chunk of those people I can wind up getting. I think it creates 
a more vibrant and exciting marketplace that creates more 
opportunities.
    We already have, in the case of Sawa, lots of imitators 
that have sprung up because of the success of Radio Sawa.
    Senator Sununu. If I could ask both you and Mr. Harb to 
speak to that point, provide a couple of specific examples of 
the changes that you have seen in other broadcasters as a 
result of the product that is being produced by either Radio 
Sawa or Alhurra.
    Mr. Pattiz. Is that to me?
    Senator Sununu. Yes. I assume each of you may know of one 
or two examples.
    Mr. Pattiz. Oh, sure. I can talk about Jordan and Egypt, as 
it relates to Radio Sawa. It has only been a matter of weeks 
with Alhurra. Even though we have seen some adjustments. Maybe 
you would like to talk about Alhurra, Mouafac, and I will talk 
about Sawa.
    We have already seen in many places where Sawa broadcasts 
music-driven radio stations that are basically following our 
play lists to attract audience. We originally started talking 
to the Egyptians about trying to get transmission within Egypt, 
which we have not secured. When I went to Qatar and met with 
Sheikh Hamad bin Jaber Al Thani who runs Al Jazeera radio and 
television in the Government of Qatar and asked him for an FM 
frequency, his response was ``what took you so long'' and they 
gave it to us. But in Egypt, we have been asking very 
aggressively for the last 3 years, and we still cannot get 
transmission within Egypt. We cover Egypt, but we cover Egypt 
from Cyprus.
    But in Egypt, they have now put FM radio stations on the 
air with formats very similar to Sawa. So we are seeing this 
happening all over the place.
    [The following letter containing additional information for 
the record was subsequently forwarded by Mr. Tomlinson.]

                   Broadcasting Board of Governors,
                               330 Independence Ave., S.W.,
                                      Washington, DC, June 3, 2004.

The Honorable John E. Sununu, Chairman,
Subcommittee on International Operations and Terrorism,
Committee on Foreign Relations,
United States Senate,
Washington, DC 20510.

    Dear Mr. Chairman:

    Thank you for your interest in the establishment of a viable 
frequency for Radio Sawa audiences in Egypt. We heartily agree that 
reaching Egyptian audiences is a high priority for U.S. international 
broadcasting, given the largely anti-American tone of Egyptian media.
    As you know, the Broadcasting Board of Governors (BBG) has been 
working with the Government of Egypt for nearly three years to find an 
agreeable in-country broadcast presence that would allow Radio Sawa to 
be heard clearly and regularly in Cairo and other major cities. As the 
Egyptian Ambassador's letter to you attests, it has been difficult to 
find a solution that satisfies the legal and technical demands of both 
parties. However, in recent weeks, representatives of our two 
governments have had a number of productive exchanges which, we 
believe, can lead to the establishment of a quality radio signal into 
Cairo.
    In previous discussions regarding transmission sites for Radio 
Sawa, the Egyptian Government has pointed us toward Egypt's ``Media 
City'' outside of Cairo, where it houses a number of government and 
commercial broadcast entities. The BBG's earlier proposal to establish 
an AM transmitter at this site met with technical problems, potentially 
interfering with other, already established, broadcast entities at the 
site. We have scaled-back our proposal to provide for the installation 
of an FM transmitter in Media City that would not pose similar 
interference problems. The location of an FM transmitter 32 miles 
outside of the city of Cairo is perhaps not our preferred option. 
However, we believe this proposal resolves the objectives of all 
parties in the current environment, and we are hopeful that this 
proposal will fit more satisfactorily within the parameters the 
Egyptian Government has set.
    Radio Sawa is an important link in our effort to reach out to young 
people in the Arab world. We believe that its music programming, 
together with its accurate, objective news, will help to renew our 
relationship of trust and dialogue in the region. We are hopeful that 
we can reach an agreement that allows us to reach out more effectively 
in Cairo.
    We greatly appreciate your interest in this important project. We 
will be happy to keep you informed as we make progress on our 
transmission capabilities in Egypt.

        Sincerely,
                            Kenneth Y. Tomlinson, Chairman.

    Senator Sununu. Mr. Harb.
    Mr. Harb. Yes. Since Governor Pattiz mentioned and talked 
about Sawa and our affect on the radio industry in the Middle 
East, I will focus more on the television industry.
    I would like to start by saying Arab independent media is a 
myth. There is not today an independent Arab media. They are 
all funded by governments or ruling families or, in some cases, 
intelligence agencies in the Middle East. So there is not an 
independent media that we are preventing. However, we are 
trying to affect indigenous media by trying to raise their 
professional standards.
    It is still a bit early to see that effect, but I have 
noticed a few things in the production values. More channels 
right now, including Al Jazeera and Al Arabiya and other 
television channels are imitating the way we present the news. 
I am not trying to simplify the question, but even Al Jazeera 
anchors smile now at the end of the newscast. One of the 
important things as a news director I would love to see--and I 
am starting to witness some of it--is to set the agenda of 
those media outlets in the morning, even if they do not imitate 
or carry what we say. Based on the editorial decisions that we 
make in the morning, we could influence some director of news 
on another channel on what stories to carry that day. And you 
see more American stories coming from the U.S. because they are 
trying to compete with us.
    Senator Sununu. A final question before we go to Senator 
Nelson.
    Mr. Pattiz, you mentioned Egypt not cooperating in helping 
to provide broadcast channels for, I think, Radio Sawa in 
particular. What other countries have shown that kind of 
resistance to being supportive of these kinds of open media 
outlets?
    Mr. Pattiz. Saudi Arabia, Syria, and Lebanon.
    Senator Sununu. And what countries have been most 
accepting?
    Mr. Pattiz. Well, almost every place else in the region. We 
have FM stations throughout the region, all throughout North 
Africa. We just launched a few months ago--I think it was 5 or 
6 months ago--in Morocco. We are getting stunning results, and 
we are up to about 8 FM stations there now.
    In Amman, Jordan, a place where you would not think that a 
station like Radio Sawa would be accepted quite that easily--it 
is 60 percent Palestinian by birth or by heritage--we are an 
instantaneous hit. Sawa has maintained its popularity, though 
its news credibility has gone down a bit--which you would 
expect from there because of some of the things that have gone 
on in the region.
    I think we are doing a really good job in Iraq now that we 
have FM frequencies rather than just broadcasting on AM 
frequencies from outside the area.
    The Persian Gulf countries have been very, very 
cooperative. I think we have nearly two dozen FM stations on 
the air right now with the permission of the host governments.
    Mr. Tomlinson. Mr. Chairman, may I make one parallel point?
    Senator Sununu. Yes.
    Mr. Tomlinson. The important thing about satellite 
broadcasting is that satellite television is going to be to our 
future what short wave was in the past because satellite 
television goes over local censors of FM frequencies and 
enables us to go directly to the people. In the same sense, we 
are looking at many regions in the world where we want to 
expand satellite broadcasting, and we have had great success in 
recent months and recent years in terms of support from the 
administration and from Congress. There is a great line from 
The Right Stuff, ``no bucks, no Buck Rogers.'' In the 10 years 
following the end of the cold war, our budgets for 
international broadcasting were cut a very real 40 percent, and 
we have reversed that. I think it is important to get this 
satellite broadcasting going in this region and others, and we 
thank you for your attention because I think with your 
attention will come greater support for all we do.
    Senator Sununu. Senator Nelson.
    Senator Nelson. Mr. Chairman, I have a number of things 
that I want to cover here, but first of all, I want to tell you 
a story.
    When I was a kid 17 years old, I was selected to represent 
America to be taken with a group of adults to speak over Radio 
Free Europe to the kids behind the Iron Curtain. For a 17-year-
old kid, that was quite an experience. Radio Free Europe was 
broadcasting out of Munich at the time and then after the 
broadcast, which in itself was a tremendous experience for a 
17-year-old, they then took me to the German-Czechoslovakian 
border at a little village called Tillyschanz where I saw for 
the first time the attempts to enslave by seeing the strands of 
barbed wire and the machine gun nest and the watchtower, the 
guard tower, and the dogs and the perfectly raked soil and the 
dragon's teeth, which are the concrete pyramids to keep a 
vehicle from crashing the fence and so forth.
    I became, at that early age and that experience and then 
ultimately years later seeing the fall of the Berlin Wall, 
absolutely convinced it was the right position that our 
government was taking at that time. Radio Free Europe was 
considered separate so that it was not an arm of the U.S. 
Government.
    So you know I am on your side on this.
    Now, I want to ask you a little more delicate question. 
With the success that you are having with the new television 
station and the radio station, which I hope is true and I hope 
it is going to get better and better, other than Castro's 
jamming, why have we not had the success with Radio and TV 
Marti? I was an original sponsor of that back in the 1980s when 
I was in the House. Can you contrast the two?
    Mr. Tomlinson. I think, Senator Nelson, we cannot underplay 
the impact of that jamming. That jamming has been as intense in 
Cuba as any place on the face of this Earth in the history of 
international broadcasting.
    But we have responded to that situation by, in the first 
place, trying to get into Cuba cassettes of Television Marti. 
We have tried to add satellite broadcasting so that if people 
can develop receivers, they can get it without regard to the 
jamming. We are seeking additional ways to get into Cuba. It is 
very difficult because, as you well know, we cannot interfere. 
We do not want to do anything to interfere with U.S. 
broadcasting. So it means we have to find a means of getting 
extra broadcasting into Cuba that does not send signals into 
the United States.
    Having said that, we also have been engaged in a great deal 
of program reform of Marti in recent months. We got a new 
director of Marti, Pedro Roig. He set about increasing the 
relevance of programming. He set about making the program, by 
the way, more news oriented because people are after 
information.
    We are focused now on upgrading Marti because we think that 
Marti can give the same results that we have seen elsewhere if 
our broadcasting is as professional as it was in Eastern 
Europe. I was on the broadcasting board that ran Radio Free 
Europe for better than 8 years, and I came to respect the 
professionalism of that place. I came to respect, as Senator 
Biden did, that there was a mission orientation and there was a 
scholarship level that was brought to that operation. That was 
professional, professional, professional. That is what we have 
tried to do in recent months at Marti, and that is what we are 
going to demand of Marti.
    So we cannot stop the jamming. But we can reform 
programming, make sure the programming is relevant to the 
people of Cuba, and making sure it is relevant to information-
deprived people. So often those information-deprived people in 
Cuba are not interested in what is going on in south Florida. 
They are interested in what is going on on their own island or 
what is going on in terms of Cuba and its relations with other 
countries.
    Senator Nelson. Is there any reason to believe that now 
that you are broadcasting on TV Marti off of a satellite 
geostationary over the eastern Atlantic, that you are getting 
more into Cuba despite the jamming now that you are going off 
the satellite?
    Mr. Tomlinson. Now that we are on satellite?
    Senator Nelson. Yes.
    Mr. Tomlinson. No hard evidence yet, but I believe we are 
going to see that evidence in the coming months as we find ways 
to get receivers into Cuba because the great thing about the 
satellite signals is they cannot be jammed if you have a 
receiver. Now, granted, as soon as we went up with that 
satellite, there was a big crackdown on little dishes 
throughout Cuba. This will remain a problem because the local 
community operations will be looking for those dishes. The 
dishes of today are very small and, if we can get receivers in, 
we will be able to get the truth in.
    Senator Nelson. All right. Back to the Middle East and 
Central Asia. Has your television station considered 
broadcasting last week's Senate Foreign Relations Committee 
hearings--there were a series on Iraq--and broadcasting them 
with Arabic subtitles? I would commend it for your 
consideration because between Chairman Lugar and Senator Biden, 
they had--and you talked about scholarship--they had a series 
of witnesses that came forth that were respected scholars and 
presented a good demonstration of a democracy discussing 
different ideas. I think it would offer Iraqis a better 
understanding of the United States and our motives if they were 
seeing it through the eyes of a hearing instead of just the 
diet of what they are getting on Arab television. I wish you 
would. That is something to commend. You do not need to answer.
    Mr. Harb. We did.
    Senator Nelson. You already have?
    Mr. Harb. We covered last week the confirmation hearing for 
Ambassador Negroponte and we also covered the Armed Forces 
hearings where Secretary Wolfowitz was speaking and he was 
asked questions. So we do cover those hearings, live with 
simultaneous translation in Arabic.
    Senator Nelson. Did you cover these hearings that I am 
talking about?
    Mr. Harb. The Armed Forces one we did.
    Senator Nelson. Foreign Relations.
    Mr. Tomlinson. We will check, but you are exactly right.
    Mr. Harb. But we do cover those hearings.
    Senator Nelson. I think the substance was in those hearings 
that Chairman Lugar held, and was different than the substance 
that was in the Negroponte hearing.
    Mr. Tomlinson. We catch you.
    Senator Nelson. OK.
    Now, I would conclude with this. We have been told both 
publicly and privately of what Al Jazeera is doing with the 
truth. Obviously, what you all are doing is one way to try to 
counter that. Do you have any reason to believe that Al Jazeera 
is going to become more balanced in its approach as contrasted 
with what we are being told Al Jazeera is just totally biased?
    Mr. Tomlinson. It is almost worse than that, Senator. They 
are willing to go with false information, willing to distort 
for the purposes of stirring up the people in that region.
    Senator Nelson. So what can we do?
    Mr. Pattiz. Well, I think we do what we are doing. I think 
we provide a different perspective that has not existed in the 
region. Obviously, the very quick preliminary numbers that we 
have shown you indicate that we are attracting an audience, and 
I think we work to continue to build that audience and to put 
on information that is different.
    This is a big problem. I have had this conversation with 
Senator Biden. We are 8 to 9 years late.
    When the satellite revolution started taking place in the 
Middle East, you had a confluence of two major events: first of 
all, the availability of satellite technology which would make 
it available to anybody who had a satellite dish without the 
necessity of the host government giving you permission. Second, 
is the population boom that is taking place where you have 
large numbers of people under the age of 20 who have absolutely 
no historical memory of anything that took place because they 
are certainly not getting it from their media.
    So we have an opportunity to provide the kind of 
information that is not readily being supplied in the region, 
and we have to do that. Obviously, we are going to be doing it. 
Potentially between Radio Sawa and Alhurra, I think there is 
just no doubt that we are going to be available to tens of 
millions, and that is a tremendous opportunity for us.
    Just to illustrate what it is you were talking about, I was 
at Alhurra a couple of weeks ago. Mouafac and I were standing 
by the monitors. We, like every other television network in the 
world, are monitoring what everybody else is doing. So we have 
got all the Arab TV satellite stations up on monitors. I 
watched a promo for Al Jazeera news, and here is what that 
promo looked like. It showed the Sheikh Yassin funeral. It 
showed a Hamas demonstration having to do with the Sheikh 
Yassin funeral. It showed American flags and Israeli flags 
being stomped on and burned. It immediately cut to a scene of 
several Hasidic Jews praying at the Western Wall, and then it 
immediately cut to a scene of Israeli soldiers in conflict with 
Palestinian youth. And that is the promo that they were using 
for their news, which they had run over and over again probably 
for several days.
    So what we are doing is providing Alhurra. We are the free 
one. The way we position our station is very different from the 
way they position their stations. This is not going to be easy. 
It is not going to be quick, but it is absolutely necessary. I 
cannot think of a more cost efficient way to reach the region, 
and to reach the number of people that we can reach in the 
region, and have the kind of effect that we are showing with 
Radio Sawa where, by a margin of 2 to 1, Sawa listeners say 
they have a more positive view of the United States of America 
than do non-Sawa listeners.
    Mr. Tomlinson. Senator Nelson, if I could add one more 
thing. I think American democracy is based on the premise that 
the people are not stupid. I think that applies in societies 
other than the United States. When we came out with Sawa, 
people said, oh, the people of the Arab world will never accept 
news from Sawa. They boycott American products. Why would they 
pay any attention to the news on an American-sponsored radio 
station? And maybe in those early weeks, they did not. Norm 
talked about the initial impact in Jordan. When only 1 percent 
of the people said they took Sawa news as credible, even though 
they were listening to the station in huge numbers.
    But then as they came to understand that the news was 
accurate and they could turn on Sawa to find out what was 
really happening in the world and they could get what was 
really happening in the world quickly--if you do not have 
censorship, if you do not have spin, you can get that news out 
quicker--and then the figures started to grow.
    Now in the latest survey, you will see that 70 percent of 
the people who listen to us in Jordan say that our news is 
credible and believable. I believe this is another 
manifestation of the fact that, whether it is here or in the 
Arab world, in the long run the people are not stupid. And if 
you give them the truth, give them accurate news, in the end we 
will have an impact.
    Senator Sununu. Thank you, Senator Nelson.
    Senator Biden, welcome.
    Senator Biden. Thank you, Mr. Chairman.
    Maybe you all should broadcast in the United States. 
Seventy percent of the people think the news is credible. I do 
not want to offend my news folks back here, but I do not think 
there is any newspaper in America--at any rate, having said 
that--you would be violating Federal law, if you did, 
obviously. You are not allowed to do that.
    Mr. Chairman, I thank you for holding this hearing. I 
apologize for coming late.
    As all three of the witnesses know, particularly the 
chairman and Norm, this is sort of a hobby horse of mine, and I 
want to start off by complimenting you. You guys are doing a 
great job. You have gone out and hired a serious person. I am 
serious. A big deal.
    The thing I hope and I know that my friend, Senator Nelson, 
understood, Ken, from what you said about Radio Marti and, for 
example, the comparison to Radio Free Europe. There were 4 
decades of institutional memory, genuine scholarship. As a 
matter fact, the library at Radio Free Europe was the place 
where Ph.D. candidates from Harvard and Yale and Stanford and 
Penn and Georgetown and Delaware went to write their theses to 
get information because it was hard.
    We had a hard fight here relative to the Board of 
International Broadcasters when a lot of people thought, when 
the wall came down, that we only needed the Voice of America, 
which is very positive. But there was this gigantic fight. It 
is the only time in my entire career I ever threatened to 
filibuster if, in fact, it did not allow for journalistic 
independence and to keep Radio Free Europe and extend it to 
Radio Free Asia and so on.
    Now, you guys are a logical extension of all that, but with 
almost an illogical conclusion. Norm, even I was skeptical when 
I sought you out to be on the board. What made me realize it 
was riding literally on a flight to Los Angeles hearing 
Westwood One again and the interviews with the rock stars. I am 
not joking. I really mean it. That package you came up with and 
sold is essentially a less sophisticated version of what you 
are doing now. As you said to me, why is the nation which 
basically invented radio and how to use it and to market it, 
why the heck were we behind the 8-ball? You have exceeded, I 
must tell you, my expectations in terms of the rapidity with 
which all of you have done this.
    But I suggest to the chairman--and I know how busy we all 
are, but if you get a chance, Mr. Chairman, to go out to 
Alhurra to the studio in Springfield, Virginia, and spend, as I 
did and others have--I guess I was only there a couple hours. 
It is breathtaking. It is breathtaking. First of all, because 
of your leadership and the leadership of this committee and the 
Senate and the House, we were able to give them enough money, 
though most people did not think it was enough--and not enough 
time. But it amazed me how quickly you got that studio up and 
running. Guys like me spend a fair amount of time in studios 
doing interviews around this town and around this country. I 
have not seen anything like it. NBC, CBS, CNN. I guess, in 
part, it is because everything is brand new, but the way you 
set it up, it is absolutely the state-of-the-art, No. 1.
    No. 2, what everybody should know is you went out and hired 
serious people like your colleague from other endeavors. Is 
there anybody from Al Jazeera you hired?
    Mr. Harb. Yes.
    Senator Biden. How many people do you have roughly?
    Mr. Harb. Four or five.
    Senator Biden. How about any other Arab television network?
    Mr. Harb. We have managed to recruit from most leading 
satellite channels.
    Senator Biden. And you see their anchors. I mean it. They 
have every vestige of what has caused American television 
stations to succeed. They are very attractive anchors, men and 
women. You guys did it as if you were setting up a new CBS, if 
it was CBK or something, a new network here. It is amazing.
    But the most important thing I think is you did what was 
the key to success in the independent radio stations in the 
1950s. You hired indigenous people. Did you all go into this in 
your testimony about not only indigenous people, you hired here 
at the ``network headquarters''? My phrase. I know it is not a 
network headquarters but at headquarters. Tell me about what is 
in the field. Do you have reporters in the field?
    Mr. Harb. Yes, we do.
    Senator Biden. By field I mean, Baghdad, Damascus, 
wherever.
    Mr. Harb. Yes, sir, we do have reports based from northern 
Iraq to even someone on the outskirts of Fallujah right now 
reporting for us. We have people from Najaf, Iraqi reporters. 
We have people in----
    Senator Biden. And they have cameras?
    Mr. Harb. They have cameras. They report via camera, via 
satellite link, or sometimes if it is breaking news, they call 
us over the phone all from the Middle East.
    Mr. Pattiz. When you put the news staff of Radio Sawa and 
the news staff of Alhurra together, we have one of the largest, 
if not the largest, Arabic language news gathering 
organizations in the world.
    Senator Biden. Tell me when my time is up, Mr. Chairman.
    Senator Sununu. Oh, you are not even close.
    Senator Biden. Let us talk about radio for a second. 
Surveys in Morocco said 88 percent of the people in Casablanca 
and Rabat listen to Radio Sawa. Is there any American radio 
station with any numbers like that? And do not tell me Westwood 
One.
    Mr. Pattiz. Maybe if you included every single Westwood One 
program that we have on NBC, CBS, and CNN, all of which are our 
networks. But no.
    Senator Biden. All kidding aside.
    Mr. Pattiz. No, it is not possible.
    Senator Biden. It is not, is it?
    Mr. Pattiz. No, it really is not.
    Senator Biden. Why is it not possible? It is important, I 
think, for people to understand and for me to understand why it 
is possible there and not here. When I say this, Norm, people 
look at me and they do not believe. They know American radio. I 
say it to American broadcasters, American news people, and I 
say 88 percent, and they say, now, wait a minute. That is not 
possible. There is not a single TV or radio station that has 88 
percent and few have even 88 percent in their own little 
market. But why?
    Mr. Pattiz. Well, first of all, there are 10,000 commercial 
radio stations here in the United States. I mean when I went 
over there, I could feel it. I could just smell it. There was a 
hole big enough to drive a fleet of Mack trucks through. The 
nature of radio over there is different than the case with 
television. They have a very vibrant television market over 
there, but in radio it is a vast wasteland. It is government-
controlled. It is mostly news and information. It is boring. It 
is government radio.
    Senator Biden. That is the point I want you to make. That 
is an important point for the credibility of what we are doing 
and why this was a good idea.
    The second question about radio. Is there an ability to 
expand the market? Is there another Sawa in the making or is 
Sawa sufficient? In other words, does it make sense for us to 
think about multiplying the radio piece or is that sufficient 
like Radio Free Europe was sufficient with Radio Liberty. Do 
you understand what I am trying to say?
    Mr. Pattiz. Yes, absolutely, Senator. My personal opinion?
    Senator Biden. Yes.
    Mr. Pattiz. I think now with the launch of Alhurra 
television, that what we have is a vehicle that is youth 
oriented, that reaches very effectively on radio an audience 
that is 30 and under and does it very effectively. And now we 
have a television outlet that is mass appeal that does not have 
a particular target audience by formats because television is 
not a medium of formats. It is a medium of programs. So in 
television we can target particular audiences based upon the 
individual programs that we put on the air. I think, 
considering the resources that we have and the needs that we 
have, that those services in the Middle East will get the job 
done.
    As we become more successful and create more imitators and 
broaden the market and create competition and create more 
successful indigenous broadcasters and our audience share as a 
function of that goes down, that is when we will have to become 
more like the narrowcasters that exist in America today because 
there are no broadcasters in America. Everybody is a 
narrowcaster and everybody talks about Fox News and CNN.
    Senator Biden. Explain what you mean by narrowcaster 
because people listening will not know what that means.
    Mr. Pattiz. The use of the word ``broad,'' refers to 
reaching a huge percentage of people. It was not unusual for a 
television network to have a 30 share. Well, it is very unusual 
for a television network to have a 30 share today. When you 
talk about the raw numbers for somebody like a Fox or an CNN or 
an MSNBC, in prime time Fox reaches an average audience of 
about 2.5 million people. CNN reaches an average audience of 
about 1.5 million people.
    Senator Biden. Out of a total of 300 million people.
    Mr. Pattiz. Yes, the population of the United States.
    So can you have impact without having to reach those kinds 
of numbers? Yes, you can. But when we become more successful 
and create bigger and more robust markets, then we may have to 
look at, in order to maintain our effectiveness, putting on 
different formats.
    When I started in the radio business, there were a half a 
dozen formats. That was 30 years ago. I think I had just had a 
conversation with Marconi at the time. But there were five or 
six different formats. There was classical music and there was 
news radio and there were talk radio stations. There was 
country music. There was rock and roll music. Well, today there 
are probably 12 different incarnations of rock and roll or 
contemporary music. So everything continues to get narrower and 
narrower and narrower.
    And as a function of it getting narrower, Senator, rather 
than try to form public opinion, we tend more to find out what 
that opinion is and pander to it. That is what is going on in 
the Middle East.
    Senator Biden. Two quick questions. I would have assumed 
that as a consequence of the success of either Sawa or the 
television station, if the result was that we generated a lot 
of imitators, I would have thought that that in and of itself 
would be a measure of success. In other words, I am assuming 
that to the extent that you generate imitators, it must mean 
there is something that the guard has been let down a little 
bit in these countries in terms of censorship. I may be wrong 
about this. I really do not know the answer. Is that likely to 
be the way things develop, or is it likely that there will be a 
development that there are more Al Jazeeras with narrower focus 
that are virtually or vehemently anti-American?
    Mr. Harb. Yes, I agree with you, Senator, that it is one of 
the ways to measure success when people start imitating what we 
do. As I said in my presentation before, television is a ``me 
too'' medium, whereby if you have a success story, other 
channels will start to imitate you. If we do what we intend to 
do, to be a source of accurate information, lively debate, and 
people start to realize that this is something that is missing 
from other channels, the other channels will begin to compete 
with us.
    Senator Biden. I am hoping that because I watched, when I 
was out at Alhurra, a debate with four leading Arab voices. One 
was I think the guy who does the program. It was not onsite. 
The guy who does the program was an Egyptian and then there 
were three other people from the region arguing current 
affairs. It was kind of like a multiple Meet the Press but it 
was all with major people that other people knew and discussing 
issues. I thought to myself that must be pretty unique in the 
region.
    There was one show you showed me that there is a well-
known--I think he was Egyptian--commentator who ran a show that 
was really quite provocative, as it was translated to me, about 
things like whether or not democracy in Egypt was preferable.
    Mr. Harb. The concept of debate shows has reached the Arab 
world today, but the parameters and the topics allowed to be 
discussed on these debate shows is what we are trying to 
expand. Right now the freedom of speech is defined in the Arab 
media by attacking the United States and Israel. Outside these 
two parameters people are not venturing yet to talk about 
unemployment and education in the Middle East. These are some 
of the issues that we at Alhurra try to expand and make sure 
our audiences are not only aware of what is going on in the 
region, but we want them to be part of the global debate.
    Senator Biden. Last question. The numbers with Sawa, as 
well as the numbers at Alhurra, are different from country to 
country. For example, I gave you the 88 percent figure for Sawa 
in Morocco, but that figure is 11 percent in Egypt and that 
figure is 42 percent in Kuwait. I assume if we had time--and we 
do not--to go through the numbers of the listenership and the 
early judgments about Alhurra, you would see that kind of 
fluctuation among countries. Or would you? Because they have a 
satellite, you do not have that fluctuation?
    Mr. Pattiz. You are absolutely right on that, Senator. 
Because the satellite covers all 22 countries of the region, it 
is really dependent upon the distribution of satellite dishes 
and their availability to pull down that signal. In the case of 
Radio Sawa, for instance, the reason why the number in Egypt is 
much lower than the number in other places is because we have 
no distribution inside Egypt. We are broadcasting to Egypt from 
Cyprus on an AM frequency, where in the other places we are 
predominantly on the FM band, and that is because of the 
inability to get the Egyptians to give us distribution within 
the country.
    Senator Biden. Well, Mr. Chairman, I am glad that you have 
taken on this hearing. Quite frankly, I think this public 
diplomacy--I really mean this--is the sort of uncharted, 
untested element of our foreign policy that has the potential 
for the greatest bang for the buck. It is like that phrase 
attributed to G.K. Chesterton. He said it is not that, ``The 
Christian idea has not been tried and found wanting, it has 
been found difficult and left untried.'' Well, I think that is 
where we are here. It is not that we have tried this and it is 
found wanting. I think it has been found difficult and left 
untried.
    I would like to come back and try to convince you, Mr. 
Chairman. I had put together with the help of the board, at the 
request of the President of the United States actually, a 
fairly comprehensive strategy for this that would cost us about 
a half a billion dollars over 5 years, $250 million in 
infrastructure over 5 years and $250 million in operating 
costs. I would really like to talk with you and others about 
it.
    But I really do think it has been found difficult and left 
untried. You guys made a great start. Thank you and thank you 
for your indulgence, Mr. Chairman.
    Senator Sununu. Thank you, Senator Biden. I certainly look 
forward to taking a look at that proposal and to working with 
you on incorporating some of its ideas to the BBG in our public 
diplomacy effort.
    I have just a couple questions before we move to our second 
panel. To followup on one of Senator Biden's questions, Mr. 
Harb, where are you having the most difficulty in attracting 
viewers? Are there any countries where the viewership, the 
uptake rate just is not what you would expect, and why would 
that be?
    Mr. Harb. You are referring to radio or television, Mr. 
Chairman?
    Senator Sununu. Alhurra.
    Mr. Harb. Because we are delivered via satellite, it is not 
about difficulty. It is just about the penetration of satellite 
television in a given country. In places like Sudan or probably 
Yemen and upper Egypt, people do not have satellite channels.
    Senator Sununu. But for an area of a given penetration, are 
you suggesting that the viewership rates are similar? My 
question was, are there particular countries where perhaps the 
incumbent or indigenous station is so strong or so powerful 
that you are not attracting viewers or where there are cultural 
issues?
    Mr. Harb. I see a trend that everywhere satellite is very 
common in a country, that we have similar numbers. We expected 
that in Lebanon we would not have good numbers because 
indigenous channels are very advanced, but it happens to be it 
is one of the top markets that we have right now.
    I believe in Egypt there may be fewer viewers because 
people do not have a lot of satellite dishes and there is some 
sort of, I would call, cultural bias. So if you rate the 
audience in Egypt, most of them would say to you they watch the 
Egyptian channels. One of the areas that we need to do more 
research on is Egypt and North Africa.
    Senator Sununu. Well, thank you. I want to wish you 
continued success. I look forward to revisiting some of the 
questions and issues that we touched on with our first panel. I 
hope you will be available for any followup information that we 
want to have you submit for the record.
    At this time I will call the next panel up, but I do want 
to take a 5-minute recess before we begin promptly with the 
second panel at 4:05.
    [Recess.]
    Senator Sununu. The subcommittee will come to order with 
our second panel.
    Welcome to each of you. I ask that as we move across the 
panel, we will provide testimony--we will just go across the 
panel from left to right--that you, as briefly as possible, 
summarize your written testimony so that we can leave as much 
time as possible for questions.
    On our second panel is Jess Ford from the General 
Accounting Office; Dr. Shibley Telhami of the University of 
Maryland; the Honorable William Rugh of Georgetown University; 
and Dr. Edmund Ghareeb of American University here in 
Washington. We will begin with Mr. Rugh. Welcome.

STATEMENT OF HON. WILLIAM A. RUGH, ASSOCIATE, INSTITUTE FOR THE 
           STUDY OF DIPLOMACY, GEORGETOWN UNIVERSITY

    Ambassador Rugh. Thank you, Mr. Chairman. Mr. Chairman, I 
am honored to be invited to testify on this very important 
subject. I was a public diplomacy official with the U.S. 
Information Agency for 30 years and I have followed public 
diplomacy ever since. This is a vital issue, especially today 
in light of the tension between America and the Arab world.
    I would like, Mr. Chairman, to report on some Arab reaction 
that I have heard to the broadcasts by Radio Sawa and Alhurra 
television, but first, if I may, I would like to put that in 
context by talking about the competitive marketplace that 
currently exists in Arab broadcasting. The context is this in 
my view briefly.
    A revolution in Arab television has taken place over the 
past decade. Prior to 1991, nearly all Arab radio and 
television was owned and controlled by Arab governments in each 
country. The content of the broadcast was supportive of the 
government completely. It was unimaginative and boring. Media 
laws prohibited any criticism of the head of state, of 
religion, or of anything undermining public order, and self-
censorship added to that.
    But during the 1990s, several private Arab satellite 
channels were established based in Europe and they broadcast 
all over the Arab world. They brought a new approach to Arab 
television. Their news coverage was much broader, bringing live 
reports from Israel, Afghanistan, and elsewhere for the first 
time. They introduced lively discussion programs that broke 
taboos. Their talk shows brought together religious 
fundamentalists and extremists, discussed the role of women, 
criticized governments. For example, I watched Al Jazeera with 
a call-in show that featured a Saudi prince who was asked by a 
person on the other end of the phone line in Riyadh about Saudi 
corruption. That was on Al Jazeera. It was getting into a 
political discussion by Al Jazeera which had never been done 
before by Arab television. Al Jazeera broke so many taboos that 
virtually every Arab government protested and took action 
against it.
    But others followed. Hizbollah's Al Manar television was 
stridently anti-Israel and pro-Palestinian, but it was very 
popular.
    Americans tend to regard Al Jazeera as anti-American, as 
you have heard in the previous panel, and to some extent that 
is true. But some of the anti-American content that we see as 
Americans in Al Jazeera is really following the street. It is a 
market-driven medium, as are most of the new satellite 
stations, and Al Jazeera is not the only one. And also we have 
to be aware that there is a cultural bias that is found in 
every country. For example, American television will give 
priority in its news broadcasts to Americans dying in Iraq 
while Arab television will give priority to Arabs dying in 
Iraq.
    Today Arab audiences, Mr. Chairman, can choose from dozens 
of television channels. Typically viewers in any country only 
watch about six or seven of them regularly. And so Arab viewers 
today might typically watch Al Jazeera or Al Arabiya, for 
example, for all news. They might turn to Middle East 
Broadcasting and Orbit for entertainment, and I might emphasize 
that the entertainment includes a lot of American content. They 
buy Hollywood films. They buy American television serials and 
programs. They might watch Al Manar if they want to watch a 
strongly pro-Palestinian reporting. And they probably watch 
their own government television channel for local news. So the 
market in the Arab world for television is very tight and the 
choices are broad for every Arab television viewer.
    Let me now turn briefly, Mr. Chairman, to Radio Sawa and 
Alhurra, and what I want to report to you is not a scientific, 
quantitative survey but reaction that I have heard from many 
Arabs that I have talked to who watch Alhurra regularly and who 
listen to Radio Sawa regularly. I am not going to quote any of 
the commentary from Arabs who are normally hostile to America. 
The comments that I will give you are all from Arabs who are 
basically friendly to America and want the United States to do 
well.
    First of all, Radio Sawa. I have to emphasize in the 
beginning of this analysis that Radio Sawa and Alhurra are 
considered U.S. Government broadcasting stations. The so-called 
firewall that the Broadcasting Board of Governors talks about 
is not recognized and not appreciated. So that is the basis 
from which we operate.
    Now, Radio Sawa's selection of news reinforces this 
impression that it is a U.S. Government station. I must say I 
was a skeptic at the beginning of its launch last year, but it 
seems to be popular with many young people, though young people 
who can hear it. They like its music. But the Arab adults that 
I have spoken with--and I have just recently returned from two 
trips to the Middle East--tell me that they prefer to listen to 
BBC Arabic and that they miss the Voice of America's Arabic 
program because it was better news, better coverage, and a 
broader program.
    Another issue for Radio Sawa is audibility. The Voice of 
America had a problem with its signal. It had a problem of 
audibility because it was primarily on short wave and on medium 
wave from Rhodes, and Radio Sawa has done a bit better because 
it is more audible in more places, but it is still not being 
heard in many parts of the Arab world.
    In conclusion, Radio Sawa has had some impact, but its 
impact with important policymaker audiences, that is, adults, 
is very limited.
    Alhurra television, however, has had a much more difficult 
time penetrating the Arab broadcast market because it is so 
highly saturated with Arab satellite television channels that 
Arab viewers find very interesting. Like Radio Sawa, it is 
considered a government broadcaster. First impressions are 
important and the inaugural interview with President Bush on 
Alhurra made it look from the start like any of the old-time, 
old-style Arab government-owned channels because that is what 
they do. Moreover, the choice of news and features seem to Arab 
viewers to be dictated by U.S. Government preferences. Viewers 
see a great deal of emphasis on Israel, on terrorism, rather 
than on the plight of the Palestinians and the Iraqi people. 
The promo that Mr. Pattiz mentioned in the previous panel 
focusing on other issues are exactly what the market wants, and 
this is what they are seeing from Alhurra. Therefore, it is not 
appealing.
    Moreover, regular viewers have told me that the channel 
seems to lack a pan-Arab character because most of the 
presenters--and this is impressions again--seem to viewers to 
be Lebanese Christians. They would like to see more presenters 
from the gulf and elsewhere.
    Arab viewers, Mr. Chairman, who are pro-American tell me 
they have been disappointed in the programming because they 
expected a lot more. They say it is not as effective in news 
gathering in the Middle East as they thought it would be. For 
example, Al Jazeera is reporting from inside Fallujah and 
Alhurra is not even though the United States is the occupying 
power in Iraq and they expected Alhurra to have an advantage. 
That may be unfair but that was the expectation.
    They say Alhurra is disappointing because it is not 
aggressively reporting on Arab corruption and lack of democracy 
which they expected it to do because President Bush has focused 
publicly on these issues and he has named specific Arab 
countries and shortcomings in those countries in public 
statements. But Arab viewers of Alhurra say that when Alhurra, 
for example, interviewed the Tunisian Foreign Minister 
recently, the Alhurra reporter complied with the Tunisian 
demand that human rights violations in Tunisia not be raised. 
So they understand and the word is getting out that Alhurra is 
just like any other government broadcasting station in the 
Middle East. It stays away from internal Arab problems.
    They also say they are disappointed that Alhurra--and this 
is surprising--has not done better than Al Jazeera and other 
Arab channels in reporting news about the United States. For 
example, in one case Al Jazeera reported on President Bush live 
while Alhurra did not. So with the friends of ours in the Arab 
world, Alhurra has been a disappointment, has not met their 
expectations.
    Mr. Chairman, I will conclude by making some 
recommendations if I may.
    I would say that Radio Sawa needs to improve its reach and 
its audibility, and it needs to focus more on what important 
adult audiences want to hear from a U.S. Government radio 
station. If we want to support American public diplomacy, we 
need to reach movers and shakers. We need to reach 
policymakers, not just youth. It would do well to broaden its 
offerings along the lines of the old VOA Arabic Service which 
had a good program, but unfortunately had signal problems.
    As for Alhurra, quite frankly, Mr. Chairman, because the 
market is already full of channels that Arab audiences like, I 
do not expect that it will succeed in reaching important 
audiences. It is, of course, too early to be sure about that, 
but the beginning is not at all promising. Since money for 
public diplomacy is scarce, I would prefer to spend the money 
we spend on Alhurra in increasing our cadre of professionals 
who have Arabic language skills who can explain America and its 
policies on the existing Arab television channels, and this is 
possible. I have appeared many times on Al Jazeera myself in 
Arabic explaining America and its policies, and it is possible 
to continue to do that. We need to do much more of that.
    Mr. Chairman, it seems to me that since the 9/11 terrorists 
used American planes to kill Americans, we should be able to 
use Arab media to inform and educate Arab audiences.
    Thank you.
    [The prepared statement of Ambassador Rugh follows:]

               Prepared Statement of Hon. William A. Rugh

    I would like to make some comments on Radio Sawa and al Hurra 
television as seen by Arab audiences. These comments are based on 
recent conversations and observations and a study of the history of 
Arab broadcasting. First I will describe the Arab broadcasting context 
into which Radio al Sawa and al Hurra television were introduced, and 
then I will cite some Arab reactions to both of them.

                     THE ARAB BROADCASTING CONTEXT

    Almost all radio and television systems in the Arab world developed 
under the direct ownership and control of Arab governments. While there 
were some private Arab newspapers, radio and TV were government 
operations. Most Arab broadcasting laws prohibited criticism of the 
head of state, defamation of religion, or undermining public order. 
Additional taboos were observed by broadcast editors based on local 
custom and political circumstances. Arab broadcast audiences therefore 
had access only to news and commentary officially approved by their 
respective governments, unless they could tune in to the Voice of 
America, BBC, Radio Monte Carlo or CNN. The content of Arab radio and 
television broadcasts was generally pretty unimaginative and boring 
because there was no real competition in Arabic. This situation 
prevailed throughout the Arab world until the early 1990s.
    Then a revolution in television broadcasting occurred, as private 
Arab satellite television channels were established in Europe that 
transmitted programs in Arabic to all Arab countries. Why did this 
happen? In 1991, when CNN provided 24/7 coverage of Desert Storm, Arabs 
saw the possibility of instantaneous live coverage of dramatic regional 
events, that satellite technology and cheaper satellite receiving 
dishes had made possible. But they regarded the CNN broadcasts as 
American in news selection and commentary, and Arab entrepreneurs began 
to think about the possibility of satellite television in Arabic and 
edited from an Arab point of view. Wealthy private investors from Saudi 
Arabia, and then others, started Arab satellite television stations 
whose programs were intended for a pan-Arab market.
    The new satellite television channels broadcast news, public 
affairs programs and commentary, along with other content including 
entertainment, much of it Hollywood movies or programs purchased from 
American commercial television. But there were two aspects of these new 
channels that made their impact on Arab broadcasting revolutionary. One 
was that they began to cover important regional news events more 
professionally and more effectively, having correspondents on the scene 
reporting live, and even entering previously off-limits areas like 
Israel to get the news. The second innovation was to present 
discussions of sensitive topics from different points of view that 
broke previous taboos.
    The pioneer in these innovations was al Jazeera Television, based 
in Qatar. Al Jazeera was and is financed by the government of Qatar, 
but it is radically different from the traditional government-
controlled television channels that dominated the Arab world until 
1991. The government of Qatar allowed al Jazeera to cover news in 
Israel and Afghanistan that had never before been covered by Arab TV 
channels, and it allowed al Jazeera to broadcast talk shows in which 
views were expressed that had never before been heard on Arab 
television, because the channels had been so tightly controlled by 
their respective governments. Al Jazeera carried talk shows on which 
Islamic fundamentalists debated with secularists, feminists argued for 
more women's rights, and opposition political spokesmen criticized 
specific governments by name. These talk shows pleased audiences but 
they angered officials in other Arab countries, and at one time or 
another, virtually every Arab government has protested al Jazeera and 
taken action against it, including expelling its correspondents. Some 
taboos still existed but many were broken. The Government of Qatar 
seems to have taken pride in allowing al Jazeera to poke other Arab 
governments in the eye, perhaps to attract attention to this tiny 
country. Whatever the reason, other Arab satellite channels, even the 
ones developed by other governments such as Abu Dhabi, have to some 
extent imitated al Jazeera by improving their regional news coverage 
and making their public affairs programming more lively and 
interesting.
    The news and public affairs programs on these channels seem to many 
Westerners to have a strong anti-American bias. Criticism of American 
policy is frequently expressed on talk shows in al Jazeera and other 
channels, and news reports are edited differently from news reports on 
American TV, often showing American actions in a negative light. Some 
of this is deliberately anti-American editing, especially for example 
on Hizbollah's al Manar channel. But much of what appears to Americans 
as anti-American is primarily motivated by the desire of editors at al 
Jazeera and other channels to satisfy the Arab market. There is today 
widespread criticism in the Arab world of American policy in the Middle 
East, and Arab television reflects that. Moreover, there is a cultural 
bias in Arab television, just as there is a cultural bias for example 
in American television, or British television. Thus when one American 
is killed in Iraq, that is priority news in U.S. television but not 
necessarily on Arab television. Conversely, when a Palestinian civilian 
is killed in the West Bank, that usually is priority news on Arab 
television but not necessarily here.
    Today the Arab television viewer with a satellite dish has a choice 
of dozens of channels. But like most TV viewers around the world, the 
Arab television viewer tends to watch, at most, only six or seven of 
them in a given week. Typically an avid television viewer might watch 
al Jazeera, al Arabiya or Arab News Network for round-the clock 
coverage of news and public affairs; Middle East Broadcasting, Orbit, 
Arab Radio and Television or Lebanese Broadcasting Company 
International for entertainment including Western and Arab programs; 
the Hizbollah channel al Manar for aggressive pro-Palestinian 
commentary and news; plus the local TV channel for local news. There 
are many choices.

                   RADIO SAWA AND AL HURRA TELEVISION

    This is the environment into which Radio Sawa and al Hurra 
television have been introduced. What has been the impact? I will 
report some Arab perceptions, since in the world of ideas, perceptions 
are often as important as reality. These comments are based on 
anecdotal information, not a formal survey.
Radio Sawa
    Young audiences who are able to hear Radio Sawa seem to like its 
mix of Arabic and Western music, and it has achieved some popularity 
just as Radio Monte Carlo had decades earlier. But Arab adults I have 
spoken with told me that they much prefer BBC Arabic Radio, because BBC 
carries much more interesting and useful news about the region and the 
world, and they regard BBC as relatively objective. Some of the people 
who used to listen to the Voice of America in Arabic now listen to BBC 
instead of Radio Sawa.
    Secondly, audibility is important. The Voice of America Arabic 
Service, which has been replaced by Radio Sawa, was limited in its 
effectiveness because it was not audible on medium wave throughout the 
area. BBC and Radio Monte Carlo had stronger medium wave signals so 
they were more successful. Now Radio Sawa has some new transmitter 
access and this has helped it considerably. But in important countries 
where it is not audible, such as Egypt and Saudi Arabia, Radio Sawa too 
is ineffective.
    Third, and importantly, Radio Sawa is regarded as a U.S. Government 
sponsored station. Arab listeners are experienced in detecting who is 
behind a given broadcaster, and they sensed that the news and public 
affairs programs were sponsored by the American government. The 
``firewall'' that the Broadcasting Board of Governors speaks of, 
separating Radio Sawa from State Department policy, was not seen or 
appreciated by Arab listeners. They simply accepted Radio Sawa as 
another government radio station.
    Radio Sawa has some potential, but rather than focusing on 
entertainment that Arab audiences can get elsewhere, I believe it 
should focus on providing the kind of news and public affairs programs 
that Arab audiences, including adults, want. Audience surveys should 
not only measure audience share but compare Radio Sawa against other 
radio stations at moments in which there is an important news event, 
such as the finding of Saddam Hussain or a Presidential news 
conference. If Radio Sawa can increase its coverage of the listening 
area, and take advantage of the fact that it is regarded as a U.S. 
Government station by broadcasting more about American policies in the 
region and the American public's views of those policies, it should 
have a greater impact.

Al Hurra Television
    Al Hurra Television has had a much more difficult time penetrating 
the Arab market than Radio Sawa, because the radio market was not very 
competitive, while the Arab television market was highly saturated with 
channels that Arab audiences found interesting.
    First, like Radio Sawa, al Hurra was assumed to be a U.S. 
Government broadcaster. The ``firewall'' was not recognized. This 
assumption was confirmed by Arab viewers in several ways. The content 
and style of the news gave the impression that it was not an Arab 
channel but American. Subjects that were chosen, and the time devoted 
to them in newscasts, seemed determined from an American point of view 
rather than an Arab perspective. More attention was paid to Americans 
in the news than to Arabs in the news. Language also did not match that 
of most Arab television stations; for example Palestinian suicide 
bombers were not referred to as ``martyrs.'' Most importantly, the 
first impression viewers got of al Hurra--and first impressions are 
important--was the inaugural interview with President Bush. Arab 
government-owned television stations have always given prominence to 
statements by their heads of state, and the Bush interview seemed to 
stamp al Hurra as just one more government-owned channel.
    Secondly, and relatedly, a common Arab reaction that I have heard 
is disappointment that al Hurra is not effective as a newsgathering 
agency in the Middle East. Arab viewers seeking news about what is 
happening inside Falluja today turn to al Jazeera and al Arabiya, 
because al Hurra is not providing reporting as good as theirs. Arab 
viewers assumed that since the United States is the occupying power in 
Iraq, and al Hurra is the American government's television channel, al 
Hurra should be in the best position of any broadcaster to have the 
best and quickest access to news events in Iraq, but it does not. Al 
Hurra's potential advantage in this competitive market has been lost.
    More generally, Arab viewers tell me they are surprised that al 
Hurra does not cover in more depth stories related to the Middle East 
that are important to Arab viewers. They say that often al Hurra gives 
a story on the Middle East short shrift and turns to a cooking show 
while the other Arab channels continue detailed coverage.
    Third, another common reaction that I have heard from Arab viewers 
of al Hurra was disappointment that it has been weak in its coverage of 
the American domestic scene. Arab viewers have become accustomed to 
watching the U.S.-based correspondents of al Jazeera, al Arabiya, Abu 
Dhabi and other Arab television channels covering developments in the 
United States, often with live reports, in Arabic. Arab viewers who 
understand English also have access to ABC, CBS and NBC news and 
current events. They expected al Hurra to cover the U.S. domestic scene 
much better, more comprehensively and more professionally than anything 
they had seen before, but al Hurra seemed weak by comparison. For 
example, they turned to al Jazeera for a recent live broadcast by 
President Bush because al Hurra did not cover it live.
    Fourth, another disappointment expressed by Arab viewers is that 
they expected al Hurra to be aggressively supporting democracy and 
human rights, but they say it has failed to live up to that 
expectation. The context is important here. Many Arab viewers have been 
critical of their own governments for failure to move in the direction 
of democratization, an end to corruption, or to protect the human 
rights of their citizens. The revolution that has taken place in Arab 
television broadcasting has opened up debate on many issues that were 
previously taboo, but there are still some taboos relating to internal 
domestic politics that remain. For example, when Saad al Din Ibrahim 
went to jail in Egypt, Egyptian media did not rally to his defense. 
Other human rights activists in other Arab countries are in jail or 
being mistreated but the Arab media are not raising their cases. Since 
President Bush has been calling for democratization and an end to 
corruption in the Arab world and he has specifically mentioned Arab 
governments that should undertake reforms, Arab audiences hoped and 
expected that al Hurra would amplify this policy and focus on domestic 
reforms that are needed in Arab countries.
    Some Arab viewers believe that al Hurra avoids taking up Arab 
domestic reform cases out of deference to Arab governments, and refuses 
to raise sensitive domestic issues. For example, when Tunisian 
President Ben Au was in Washington recently, it is widely believed that 
al Hurra accepted the Tunisian demand that in an interview with the 
Tunisian Foreign Minister, the question of Tunisia's human rights 
abuses not be included. Al Hurra therefore looks like any other 
government-owned channel that respects Arab taboos.
    Finally, Arab regular viewers of al Hurra tell me that the tone and 
style of the broadcasts lack pan-Arab balance. They assume from the 
names and accents of the presenters that most of them are Lebanese 
Christians, and they wonder about the absence of broadcast 
professionals from the Gulf, for example. Arab viewers are always 
sensitive to identification of the individuals by nationality, tribe 
and religion, so this is an important factor in creating the al Hurra 
image.
    In conclusion, Radio Sawa may have some potential if it improves 
its content, and tries some of the effective programming that VOA 
Arabic used over the years. However, as for al Hurra, it has entered a 
very competitive market and the first impression that it has made has 
disappointed many viewers. It was to be expected that those implacably 
hostile to America would criticize al Hurra no matter what it did, but 
it is telling that the specific comments mentioned here have come 
essentially from America's friends in the region who want us to succeed 
and be understood. My conclusion is that while it is still too early to 
be sure, early indications are that al Hurra cannot succeed in this 
very competitive market.
    Something urgently needs to be done to help bridge the great gap 
between American and Arab perceptions. We are in a serious war of 
ideas. My recommendation is that it would be more cost-effective to 
devote the funds used for television broadcasting to other badly needed 
public diplomacy programs. The most effective public diplomacy for Arab 
audiences involves dialogue by Americans willing to listen and able to 
explain the United States and its policies. Instead of trying to manage 
our own television channel, we should do more to gain access to the 
existing Arab channels, and we should increase the number of trained 
professional officers with Arabic language capabilities who can explain 
America and its policies using Arab media. The 9/11 terrorists used our 
planes to kill our people. We should be able to use Arab media to 
inform and educate Arab audiences.

    Senator Sununu. Thank you, Mr. Rugh.
    Dr. Telhami, welcome.

 STATEMENT OF PROFESSOR SHIBLEY TELHAMI, ANWAR SADAT PROFESSOR 
                OF PEACE, UNIVERSITY OF MARYLAND

    Dr. Telhami. Thanks, Mr. Chairman. I am honored to testify 
before this committee again.
    I will focus only on satellite television in my testimony. 
I will make five short points. What I hope to do with these 
points is really put this in a broader perspective. I think we 
have focused so much on Alhurra and what it can do and we are 
sort of losing sight of the bigger picture.
    The first point that I want to make is that the prevalent 
resentment of American foreign policy, whether it is in the 
Middle East or elsewhere around the world, is of course 
influenced by the media. The media plays a role, but by and 
large, it is not shaped by this media. Frankly, there is no Al 
Jazeera television in Europe and Latin America and Africa and 
Asia. We have strong anti-Americanism. There are many people in 
the Middle East that do not have satellite television. They 
express just as much anti-Americanism as those who do.
    We have seen resentment toward America go down very rapidly 
in 4 or 5 years, and frankly even before this administration 
came to office, largely in relation to events on the Arab-
Israeli issue, not to media coverage. Just in the spring of 
2000, when people were optimistic about peace in the Middle 
East, over 60 percent of Saudis, according to the State 
Department, expressed confidence in the United States of 
America. That dropped rapidly in the fall before our elections, 
as soon as the negotiations collapsed, and continued to drop 
into the spring and certainly accelerated after 9/11 and the 
war on terrorism, reaching the single digits in the past year.
    So I think we have to put this, first of all, in 
perspective. This is not a media-driven phenomenon. The media 
certainly is a player that we have to take seriously, but at 
the heart of it, it is something bigger that we have got to 
address and we cannot ignore that and sort of pin the 
responsibility on the media as if that is the answer to all our 
problems in the region and around the world.
    Second, I think what Ambassador Rugh pointed out very 
eloquently is that to the extent that there is a change in the 
Middle Eastern media in the past decade, it is that we have 
this market-driven phenomenon. By market-driven phenomenon, we 
do not mean necessarily that these stations are not owned by a 
government, as in the case of Al Jazeera, but that they have a 
different logic because of the technological reach. Because of 
the commonality of Arabic as a language across the Arab world, 
the market now is defined as the 300 million Arabs. The 
prototype for these stations is the Arab, not the Qatari or the 
Yemeni or the Algerian. But they are trying to reach the 
largest possible market share among all Arabs, and therefore, 
the prototype consumer is the Arab. Therefore, by definition, 
they are trying to appeal to the tastes and fashions of that 
consumer.
    We see that actually very interestingly in the case of Al 
Jazeera and how it is reporting change. People forget, for 
example, that in the late 1990s, only 5 years ago, Al Jazeera 
was being accused in the Arab world of being pro-American, pro-
Israeli. Even some accused it, ``of being a Zionist agent.'' 
The reason why they were doing that was that Al Jazeera was a 
pioneer in putting on the screen Israeli representatives on a 
regular basis, the Israeli point of view, somebody in the 
Knesset, sometimes even putting live the debate in the Knesset. 
And Arabs were watching and the reason they were watching is 
they believed Arab-Israeli peace was coming. It was around the 
corner. Most of them knew little about Israel. They did not 
know what the Israelis were like. Al Jazeera was bringing 
Israel to the homes of Riyadh and Rabat in ways that no one 
else there could do, and for that reason they were accused of 
being pro-Israeli.
    Well, what happened is, the negotiations collapsed. You 
have a lot of bloodshed. The story was blood and war, and 
people wanted to see it. In fact, when Al Jazeera came under 
pressure before the war last year to tone down its coverage of 
the Palestinian areas, my surveys in the Middle East show that 
Al Manar gained on it and became No. 1 news on the Arab-Israeli 
issue. Al Manar is Hizbollah's television in places like 
Jordan. So, clearly, it is a market-driven phenomenon. We have 
to understand that they are trying to cater to the market.
    Third, I am an observer of this media as a scholar. I have 
been watching it for a long time. I also appear on it. If I 
look at it in historical perspective, I do not think we have 
ever seen, frankly, a foreign media that has given more direct 
and live coverage of American officials than the Arab satellite 
media. And Mr. Rugh, I think you certainly played a role in the 
media before historically. You probably could put a perspective 
on it, but I have never seen it on this scale, in part because 
people are obsessed certainly with the United States. There are 
always policies related to Iraq, the Arab-Israeli issue, news 
conferences live, translated live in Arabic, by the President, 
by the Secretary of State, Secretary of Defense, news 
conferences by generals in the region. Clearly, there is that 
coverage. Now, you can say the commentary is not that good, and 
that is probably true, but the coverage is there.
    But the coverage itself is undermined less by the 
discussion afterwards and more by the fact that appearance by 
American officials often reinforces people's biases because 
American officials speak with our own paradigm, our own world 
view and often in the back of our minds, we are speaking to our 
own constituency at home, to Congress, to our media, how we are 
going to be covered, and in that sense, in a way reinforces the 
fears of people in the region rather than alter the perception. 
And I think we have to become aware of that more often.
    Fourth, I think it is fair to say in times of tragedy and 
war, in times of pain, people listen and watch with their 
hearts much more than they do with their minds. Certainly if 
you look at our own coverage in our own media and own public 
attention to the media, immediately after the tragedy of 9/11 
or throughout the war, it is clear that we watch with our 
hearts. Certainly the media responds to that. Our public, when 
we are in pain, is not neutral. It cannot be. You are in the 
middle of pain, you are not going to make an objective 
assessment, and the media is not neutral because its audience 
is not neutral.
    In that sense, we have to put in perspective that in the 
Middle East this is a time of pain. There has been a time of 
pain over the past few years. The war, the bloodshed in Iraq 
and the Palestinian-Israeli conflict, the terrorism in Saudi 
Arabia, Morocco, everywhere, it is a continuous time of pain, 
and in those times of pain, people are watching with their 
hearts and those stations that speak to the heart are the ones 
that get the market share.
    Frankly, I think Alhurra's biggest problem, biggest 
challenge I should say--and I think it has been done 
professionally, but I see it as a major challenge--is that the 
notion of neutrality--Ambassador Rugh spoke about the 
criticism, it does not speak with an pan-Arab voice. Well, I 
think what they are saying is it is not speaking to the heart. 
And the question is, when people want to hear through the 
heart, can it reach them? Well, it is an interesting 
experiment.
    Let me make my final point which goes to another issue. I 
served recently on the Advisory Committee on Public Diplomacy 
that Congress mandated. It was a bipartisan committee that 
presented a report to the administration. Clearly, we 
understood that public diplomacy is important, but in that 
report we also said that most of the anti-Americanism probably 
is related to policies that cannot be addressed through public 
diplomacy. We put it in perspective. Still, we thought there 
are many things that public diplomacy could address and we 
believe that the media plays a modest role within public 
diplomacy but not even a central role. In fact, we addressed 
largely the sort of issues on educational exchanges, media 
exchanges, civil society exchanges, communication through 
language and culture, as well as the media.
    In that sense, I think we have to ask the question about 
the bang for dollar that we are going to get out Alhurra. I 
happen to think that in absolute terms, the budget is not huge, 
and when you take into account that Alhurra's annual budget is 
only one-third of what we spent daily in the war in Iraq, and 
when you consider that it is an important part of the fight, I 
think it is not a huge budget. But when you compare it to the 
rest of the public diplomacy budget, which many of us think is 
extremely important, I think then you have to ask questions 
about the rest of the budget because there we found that only 
$150 million is allocated to the entire public diplomacy 
program toward 1.2 billion Muslims around the world, of which 
only $25 million a year is allocated to public diplomacy 
outreach programs. I think that is the question. I think as 
long as we do not increase the public diplomacy budget on those 
other programs that really, really badly need it, the 
proportion of allocation will look less justified. I think in 
absolute terms, the budget is small.
    I think Alhurra should be there. I think there should be an 
American voice. That American voice may not succeed in the 
short term, but there is no reason why you cannot build trust 
over time and wait until such time when you experiment and in 
fact can reach a broad audience. In the short term, I think it 
is an uphill battle.
    Thank you.
    [The prepared statement of Professor Telhami follows:]

            Prepared Statement of Professor Shibley Telhami

    Mr. Chairman, before addressing the role that Al-Hurra television 
station and other American media can play in influencing the hearts and 
minds in the Arab world, it is important to put the task in 
perspective.
    First, the prevalent resentment of American foreign policy in the 
region and around the world is certainly influenced by the media 
coverage, but ultimately is not shaped by it. Europeans, Africans, 
Latin Americans, Asians do not watch Al-Jazeera or other Arab 
satellites, and yet we know from surveys that resentment of American 
foreign policy is pervasive in these places as well. Moreover, in the 
Middle East, even those many who have no access to satellite television 
express deep resentment of the United States. In fact, we know that the 
rapid decline in confidence in the United States is not a function of 
the media in the Middle East as such. In a public opinion survey 
conducted by the State Department in the spring of 2000, for example, 
over 60% of Saudis expressed confidence in the United States. The level 
of confidence began rapidly declining after the collapse of the 
Palestinian-Israeli negotiations in the fall of 2000 and continued to 
decline in the spring. This decline accelerated after the tragedy of 9/
11 and the war on terrorism, reaching the single digits in the past 
year. In short, much of the resentment toward the United States is the 
consequence of events and policies, not the media coverage as such.
    Second, to the extent that there is a profound change in the Arab 
media that has taken place over the decade, it is this: the media is 
far more market-driven than ever before. In the past, governments in 
the region nearly monopolized the media, especially television, and 
they catered largely to their own domestic constituencies. They 
generally had captive audiences. Today most Arabs who have access to 
satellite television have dozens of choices, mostly from outside their 
own boundaries. They watch what they want to and turn off what they 
don't. Successful media outlets such as Al-Jazeera prevail in getting a 
large market share by understanding their consumer. Because the Arabic 
language is common in all Arab states, language defines the potential 
size of the market. As such, the target consumer is no longer ``the 
Qatari'' or ``the Kuwaiti'' but ``the Arab.'' In that regard, a station 
succeeds in getting the largest share of the market by understanding 
what is most in common among Arabs and catering to it. In that regard, 
the media more often than not reflects public opinion more than it 
shapes it. That is not to say that it does not often reinforce opinions 
or incite passions, but in the end people watch it because it resonates 
with their preexisting passions and opinions.
    Two examples are especially helpful in this regard. Al-Jazeera 
television, which is now being accused of inciting anti-Americanism and 
anti-Israeli sentiment in the Arab world, was accused by many Arabs in 
the late 1990s of being ``pro-Israeli'' or even ``a Zionist agent.'' 
The reason for this attitude of many Arabs was that Al-Jazeera was 
especially bold in putting on the air Israeli voices on a regular 
basis, including coverage from the Israeli parliament (the Knesset). 
When they discussed Israeli-Palestinian negotiations, they not only 
hosted Palestinian representatives but also Israeli representatives 
(which incidentally they still often do). Still, despite that 
accusation by some Arabs, Al-Jazeera gained a huge share of the market 
for a simple reason: at the time, most Arabs assumed that peace between 
Israel and the Arabs was on its way, and most knew little about Israel 
and were interested in learning. Al-Jazeera brought Israel to homes in 
Riyadh and Rabat that had not seen Israel before.
    As soon as the negotiations collapsed and Israeli-Palestinian 
violence escalated, the public had less hope for an agreement and was 
more focused on the bloodshed. Al-Jazeera was there to cover it live. 
It kept its market share. Last year, just before the Iraq war, when Al-
Jazeera came under pressure to lessen coverage of Palestinian-Israeli 
bloodshed, something else happened. In Jordan, where Al-Jazeera has 
been number one for news on the Arab-Israeli conflict, its share of the 
market dropped to number two. Taking its place was a station that 
focused on the violence even more: Al-Manar Television, run by the 
Lebanese Hezbollah. In short, while we must understand that each 
station, including Al-Jazeera, certainly has its own agenda, the degree 
to which it succeeds in gaining the widest viewership is largely a 
function of market demand.
    Third, today's satellite Arab stations, especially Al-Jazeera, give 
more direct voice to American officials than ever in the Arab world. 
Most of these stations give live coverage with verbatim translations of 
major news conferences by top American officials and military 
commanders related to Middle Eastern matters. In general, these views 
are presented without editing, although there are discussions that 
follow with people who are often critical of American officials but 
also those who are not. While such coverage gives the U.S. more direct 
airing of its voice than ever, this is not always a good thing. This is 
in part because American official views often reinforce the fears and 
biases of the Arab viewers rather than alleviating them. In addition, 
American officials, even when they are addressing a Middle Eastern 
audience, speak with the knowledge that their words are going to be 
ultimately judged by the American media, Congress, and American public 
opinion, which therefore incline them to formulate their message in a 
manner that again reinforces the fears and biases in the region.
    Fourth, in times of pain, tragedy, and war, people everywhere, and 
certainly Arabs, listen and watch with their hearts more than with 
their minds. We have witnessed this first-hand in the weeks after the 
9/11 horror and certainly during the war with Iraq. To some extent we 
continue to experience this, although to a lesser extent. In the Middle 
East, the last few years have been times of continued pain, war, and 
tragedy, including in the Palestinian-Israeli conflict, in Iraq, in 
major terrorist attacks in several Arab countries. The public is not 
neutral, especially in these times. The media, even the professionally-
run media, is also not fully neutral: they reflect the passions of the 
pubic. If they don't, few would watch. Certainly some reporters and 
media outlets exploit this deliberately to gain viewership, which is 
unfortunate but not surprising. But even those who are not deliberately 
exploitative cannot escape sometimes speaking with and catering to the 
heart. This is in fact one of the biggest obstacles facing a station 
like Al-Hurra, which seeks to have a detached, objective analysis of 
the news during times of pain. Its aim is to be precisely dispassionate 
while facing a passionate audience. A recent example of this is when 
Israel assassinated Hamas leader Sheikh Ahmed Yassin. Al-Hurra ran a 
short story as the news broke, then went back to its normal 
programming, which focused on an episode in American history. Other 
Arab satellites stayed with the story live and brought coverage with 
different perspectives, including live shots, which was bound to gain a 
far larger share of the market.
    Fifth, I have already suggested at the beginning of this statement 
that the media's role in shaping anti-Americanism is modest, and that 
the most important factors are policies and events on the ground, not 
strategies pursued by the media as such. In a recent report by an 
advisory committee on public diplomacy, which was mandated by Congress, 
and on which I had the honor of serving, we recognized that the role of 
public diplomacy itself is relatively small in shaping attitudes, 
compared with policies, even though this role is still important.
    The media plays a relatively modest role even within public 
diplomacy as such. The report emphasized, especially educational and 
other civil society exchanges between the U.S. and Arab and Muslim 
countries, as the best method of reaching the hearts and minds in the 
long term. Still, the U.S. should have a voice in the region and cannot 
be absent from the media market, as this market is evolving and will 
continue to evolve as a consequence of technological change and 
increasing competition. In that sense it is certainly useful to begin 
experimenting with television and radio programming that may ultimately 
have an effect. But two things must be kept in mind in this regard. 
First, expectations must be put in perspective here. Al-Hurra, no 
matter how professionally run (and I believe it is professionally run) 
will not succeed in any foreseeable future in either gaining a 
significant share of the news market in the region, nor be able to 
significantly affect public opinion on its own. It must be conceived 
for now as having an American voice that essentially will gain enough 
trust overtime to have a positive, even if small, impact. Second, one 
has to assess its desirability in terms of the bang for the dollar: In 
the end it comes down to resources. In absolute terms, the funds spent 
on Al-Hurra are not large if one considers that we're spending nearly 
three times as much as its entire annual budget in a single day in the 
Iraq war. But that same amount brings to mind the extraordinarily low 
amount of money and the low budget that the U.S. government expends on 
its entire public diplomacy program in the Muslim world of 1.2 billion 
people. (The estimated budget is $150 million annually, of which only 
$25 million are specifically allocated to public diplomacy outreach 
programs.) Until that budget expands significantly, as I believe it 
should, the allocation to Al-Hurra will seem disproportionate.
    Thank you Mr. Chairman

    Senator Sununu. Thank you, Doctor.
    Mr. Ford.

STATEMENT OF JESS T. FORD, DIRECTOR, INTERNATIONAL AFFAIRS AND 
             TRADE, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Ford. Thank you, Mr. Chairman. I appreciate being 
invited here today.
    I am going to focus a little bit more on management issues 
with U.S. international broadcasting which is based on several 
reports we recently issued on international broadcasting and 
public diplomacy.
    Our reports over the last several years have examined a 
number of organizational, marketing, resource, and performance 
management challenges facing U.S. international broadcasting 
overall. Our two most recent reports have addressed the board's 
principal response to these challenges, the development of a 
new 5-year strategic approach to international broadcasting, 
which emphasizes the reach of large audiences and applying 
modern broadcast techniques and strategically allocating 
resources to high-priority broadcast markets. Early 
implementation of this strategy has focused on markets relevant 
to the war on terrorism and, in particular, the Middle East and 
Central Asia.
    The Broadcasting Board of Governors faces a number of 
challenges. Key among them is how to achieve large audiences in 
priority markets while dealing with the disparate 
organizational structure consisting of five broadcast entities 
and a mix of Federal and grantee organizations managed by a 
part-time board and a collection of outdated and noncompetitive 
language services that have failed to respond to current market 
conditions. The disparate structure of U.S. international 
broadcasting has led to overlapping language services, 
duplication of program content, redundant news gathering and 
support services, and difficulties in coordinating broadcast 
efforts. Marketing challenges include the use of the outmoded 
program formats and styles, the general lack of target 
audiences within broadcast markets, poor signal delivery in 
many areas, and low audience awareness in several major 
markets.
    The board's new strategic approach is designed to address 
these problems. The board has developed a so-called single 
system which it hopes to use to consolidate and modernize its 
broadcast operations. Recent board initiatives such as Radio 
Sawa broadcast to the Middle East and Radio Farda broadcast to 
Iran illustrate the board's willingness to serve as a content 
manager for U.S. international broadcasting and to adopt 
market-based approaches designed to attract large listening 
audiences.
    Triggered by a desire to better manage its limited 
resources, the board has used its annual language service 
review process to identify and reallocate cost savings to 
higher-priority needs. The process is used to address such 
complex resource issues as how funds should be allocated among 
the language services based on their priority and impact, how 
major broadcast services should be carried in total, what 
degree of overlap and content duplication should exist among 
the services, and whether services should be eliminated because 
they fulfill their broadcast mission.
    Since 1999, the board has identified more than $50 million 
in actual or potential savings through this process. For 
example, its language review process from 1999 to 2000 resulted 
in about $20 million being reallocated from low-priority impact 
services to help fund Radio Sawa and Radio Farda. Most recently 
the board has used the language service process as a vehicle 
for identifying language services that should be eliminated. 
For example, based on its review process, the board's fiscal 
year 2004 budget request to Congress recommended the 
elimination of 17 Central and Eastern European language 
services managed by the Voice of America, Radio Free Europe, 
saving approximately $21 million. These decisions will be 
critical to the board's ability to channel resources to the 
higher-priority markets such as broadcast in the Middle East 
and Central Asia.
    In response to a number of our recommendations, the board 
has revised its strategic planning approach with a goal of 
reaching large markets as a centerpiece for performance 
reporting and has identified broadcast credibility and audience 
awareness as key performance measures. These steps will help 
the board answer questions about the effectiveness of such 
efforts as Radio Sawa and TV Alhurra in reaching mass audiences 
and elites in the Middle East, whether foreign publics perceive 
U.S. broadcast as being independent of American foreign policy, 
and whether VOA is effectively promoting the image of the 
United States and educating foreign audiences about U.S. 
practices and policies.
    In conclusion, our work shows that the board has taken a 
number of important steps over the last several years to 
improve strategic planning and develop a review process to 
allocate funds to the highest priority needs. The board must 
continue to look for ways to streamline and modernize 
broadcasting operations and ensure that resources it receives 
are effectively meeting the goals, especially in priority 
markets.
    I would be happy to answer any questions you might have.
    [The prepared statement of Mr. Ford follows:]

                   Prepared Statement of Jess T. Ford

                    U.S. INTERNATIONAL BROADCASTING

         Challenges Facing the Broadcasting Board of Governors

                             WHAT GAO FOUND

    The Broadcasting Board of Governors has responded to a disparate 
organizational structure and marketing challenges by developing a new 
strategic approach to broadcasting which, among other things, 
emphasizes reaching large audiences through modern broadcasting 
techniques. Organizationally, the existence of five separate broadcast 
entities has led to overlapping language services, duplication of 
program content, redundant newsgathering and support services, and 
difficulties coordinating broadcast efforts. Marketing challenges 
include outmoded program formats, poor signal delivery, and low 
audience awareness in many markets. Alhurra television broadcasts to 
the Middle East and Radio Farda broadcasts to Iran illustrate the 
Board's efforts to better manage program content and meet the needs of 
its target audiences. Although we have not validated available research 
data, the Board claims that the application of its new approach has led 
to dramatic increases in listening rates in key Middle East markets.
    To streamline its operations, the Board has used its annual 
language service review process to address such issues as how resources 
should be allocated among language services on the basis of their 
priority and impact, what degree of overlap should exist among 
services, and whether services should be eliminated because they have 
fulfilled their broadcast mission. Since 1999, the Board has identified 
more than $50 million in actual or potential savings through this 
process.
    In response to our recommendations on the Board's strategic 
planning and performance management efforts, the Board revised its 
strategic plan to make reaching large audiences in strategic markets 
the centerpiece of its performance reporting system. The Board also 
added broadcaster credibility and audience awareness to its array of 
performance measures and plans to add a measure of whether VOA is 
meeting its mandated mission.
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to provide an overview of the three 
reports we have issued over the past 4 years on the operations of the 
Broadcasting Board of Governors.\1\ \2\ \3\ These reports have examined 
a number of organizational, marketing, resource, and performance 
management challenges facing U.S. international broadcasting. Our two 
most recent reports have addressed the Board's principal response to 
these challenges--a new 5-year strategic approach to international 
broadcasting known as ``Marrying the Mission to the Market,'' which 
emphasizes the need to reach large audiences by applying modern 
broadcast techniques and strategically allocating resources to focus on 
high-priority broadcast markets. Early implementation of this strategy 
has focused on markets relevant to the war on terrorism, in particular 
the Middle East and central Asia.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, U.S. International 
Broadcasting: Strategic Planning and Performance Management System 
Could Be Improved, GAO/NSIAD-00-222 (Washington, D.C.: Sept. 27, 2000).
    \2\ U.S. General Accounting Office, U.S. International 
Broadcasting: New Strategic Approach Focuses on Reaching Large 
Audiences but Lacks Measurable Program Objectives, GAO-03-772 
(Washington, D.C.: July 15, 2003).
    \3\ U.S. General Accounting Office, U.S. Internatiownal 
Broadcasting: Enhanced Measure of Local Media Conditions Would 
Facilitate Decisions to Terminate Language Services, GAO-04-374 
(Washington, D.C.: Feb. 26, 2004).
---------------------------------------------------------------------------
    Drawing from our published reports as well as recent testimony on 
U.S. public diplomacy,\4\ I will talk today about (1) organizational 
and marketing obstacles and the Board's efforts to overcome them, (2) 
what the Board has done to manage its limited resources, and (3) the 
status of Board efforts to develop meaningful performance goals and 
measures. I will also discuss our recommendations to the Board and the 
status of its response to them. As part of our work to prepare for this 
testimony, we met with Board staff to obtain updated program data and 
current information on the steps the Board has taken to respond to our 
recommendations. The reports used for this testimony were based on work 
conducted in accordance with government auditing standards.
---------------------------------------------------------------------------
    \4\ U.S. General Accounting Office, U.S. Public Diplomacy: State 
Department and the Broadcasting Board of Governors Expand Efforts in 
the Middle East but Face Significant Challenges, GAO-04-435T 
(Washington, D.C.: Feb. 10, 2004).
---------------------------------------------------------------------------
                                SUMMARY

    The Broadcasting Board of Governors faces a number of challenges, 
and key among them is how to achieve large audiences in priority 
markets while dealing with (1) a disparate organizational structure 
consisting of five broadcast entities and a mix of federal and grantee 
organizations managed by a part-time Board and (2) a collection of 
outdated and noncompetitive language services that have failed to 
respond to current market conditions. The disparate structure of U.S. 
international broadcasting has led to overlapping language services, 
duplication of program content, redundant newsgathering and support 
services, and difficulties in coordinating broadcast efforts. Marketing 
challenges include the use of outmoded program formats and styles, the 
general lack of target audiences within broadcast markets, poor signal 
delivery in many areas, and low audience awareness in several major 
markets. The Board's new strategic approach addresses these issues by 
treating broadcast entities as content providers within a ``single 
system'' that the Board oversees to ensure that broadcast content meets 
the discrete needs of individual markets using modern broadcasting 
techniques. Recent Board initiatives such as Radio Sawa broadcasts to 
the Middle East and Radio Farda broadcasts to Iran illustrate the 
Board's willingness both to serve as the content manager for U.S. 
international broadcasting and to adopt a market-based approach 
designed to attract large listening audiences in high-priority markets 
in support of U.S. strategic objectives in the war on terrorism. 
Although we have not validated available research data, the Board 
claims that the application of its new strategic approach has led to 
dramatic increases in audience listening rates in markets of key 
strategic interest to the United States.
    Triggered by a desire to better manage its limited resources, the 
Board has used its annual language service review process to identify 
and reallocate cost savings to fund higher-priority needs, such as 
expanded initiatives in the Middle East and central Asia. The process 
is used to address such complex resource issues as how funds should be 
allocated among services based on their priority and impact, how many 
broadcast services should be carried, what degree of overlap and 
content duplication should exist among services, and whether services 
should be eliminated because they have fulfilled their broadcast 
mission. Since 1999, the Board has identified more than $50 million in 
actual or potential budget savings through the language service review 
process. From 1999 through 2002, the language service review process 
resulted in the reallocation of about $19.7 million from lower-priority 
or lower-impact language services to higher-priority broadcast needs, 
including Radio Farda and Radio Sawa In response to our recommendation, 
the Board updated its review process to include a specific analysis of 
overlapping language services.\5\ In its 2003 review, the Board 
identified $12.4 million in fiscal year 2004 and 2005 transmission cost 
and language service overlap reductions that could be reallocated to 
higher-priority needs, such as expanding Urdu language broadcasts to 
Pakistan and Persian language television to Iran. Finally, the Board 
has used its language service review process as a vehicle for 
identifying which language services should be eliminated. For example, 
based on its review process, the Board's fiscal year 2004 budget 
request to Congress recommended the elimination of 17 Central and 
Eastern European language services managed by Voice of America (VOA) 
and Radio Free Europe/Radio Liberty (RFE/RL), saving a projected $20.9 
million for fiscal years 2004 and 2005. While the Board is to be 
commended for making a difficult decision in this case, our February 
2004 report did note that the language service review process lacks an 
adequate measure of whether domestic media provide accurate, balanced, 
and comprehensive news and information to national audiences--a 
condition that Congress expects to be met before RFE/RL language 
services are terminated.\6\
---------------------------------------------------------------------------
    \5\ Overlap exists when a VOA and a surrogate service, such as RFE/
RL, broadcast in the same language to the same target audience. Some 
degree of overlap is appropriate given the varying missions of U.S. 
broadcast entities. However, In its new strategic plan, the Board 
identified a 40 percent overlap in its language services as excessive.
    \6\ With passage of the Fiscal Year 2004 Consolidated 
Appropriations Act, House and Senate conferees adopted the Board's 
proposal to terminate service to those Central and Eastern European 
nations that have been invited to become new member states of the 
European Union or the North Atlantic Treaty Organization (NATO) and 
have received a Freedom House (a nonprofit group reporting on economic, 
political, and press freedom issues around the world) rating equal to 
that of the United States. Conferees expressed the expectation that 
broadcast services would continue in Romanian and Croatian.
---------------------------------------------------------------------------
    In response to our recommendations on the Board's strategic 
planning and performance management efforts, the Board revised its 
strategic plan to make the goal of reaching large audiences in 
strategic markets the centerpiece of its performance reporting system. 
Also in response to our recommendations, the Board added broadcaster 
credibility and audience awareness to its array of performance measures 
and plans to add a measure of whether VOA is meeting its mission. These 
steps will help the Board answer questions about the effectiveness of 
initiatives such as Radio Sawa and Alhurra (the two entities comprising 
the Middle East Television Network) in reaching mass audiences and 
elites in the Middle East, whether foreign publics perceive U.S. 
broadcast services as being independent of American foreign policy, and 
whether VOA is effectively promoting the image of the United States and 
educating foreign audiences about U.S. practices and policies.

                               BACKGROUND

    The Broadcasting Board of Governors oversees the efforts of all 
nonmilitary international broadcasting, which reaches an estimated 
audience of more than 100 million people each week in more than 125 
markets worldwide. The Board manages the operations of the 
International Broadcasting Bureau (IBB), VOA, the Middle East 
Television Network (Alhurra and Radio Sawa), RFE/RL, and Radio Free 
Asia (RFA). In addition to serving as a reliable source of news and 
information, VOA is responsible for presenting U.S. policies through a 
variety of means, including officially labeled government editorials. 
Radio/TV Marti, RFE/RL, and RFA were created by Congress to function as 
``surrogate'' broadcasters, designed to temporarily replace the local 
media of countries where a free and open press does not exist. Created 
by the Bush administration and the Board, the Middle East Television 
Network draws its mission from the core purpose of U.S. international 
broadcasting, which is to promote and sustain freedom by broadcasting 
accurate and objective news and information about the United States and 
the world to audiences overseas.\7\
---------------------------------------------------------------------------
    \7\ The U.S. International Broadcasting Act of 1994 states that 
U.S. international broadcasting efforts should, among other things, be 
consistent with the broad foreign policy objectives of the United 
States; provide a balanced and comprehensive projection of U.S. thought 
and institutions; and provide accurate and objective news and 
information about developments in significant regions of the world.
---------------------------------------------------------------------------
    In addition to the stand-alone entities that make up U.S. 
international broadcasting, Congress and the Board have created other 
broadcast organizations to meet specific program objectives. Congress 
created Radio Free Iraq, Radio Free Iran, and Radio Free Afghanistan 
and incorporated these services into RFE/RL's operations. Under its new 
strategic approach to broadcasting, the Board and the Bush 
administration created Radio Sawa, the Afghanistan Radio Network (ARN), 
Radio Farda, and Alhurra to replace poorly performing services, more 
effectively combine existing services, and create new broadcast 
entities where needed. Figure 1 illustrates the Board's current 
organizational structure.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    VOA, RFE/RL, and RFA are organized around a collection of language 
services that produces program content. In some countries, more than 
one entity broadcasts in the same language. These overlapping services 
are designed to meet the distinct missions of each broadcast entity. 
Currently, 42 of the Board's 74 language services (or 57 percent) 
target the same audiences in the same languages. While some degree of 
overlap is to be expected given the varying missions of the broadcast 
entities, the Board has concluded that this level of overlap requires 
ongoing analysis and scrutiny.
    The Board's budget for fiscal year 2003 was approximately $552 
million, with nearly half of its resources used to cover transmission, 
technical support, Board and IBB management staff salaries, and other 
support costs. Among the broadcast entities, funds are roughly equally 
divided among VOA and the four other U.S. broadcasting entities. Figure 
2 provides a breakout of the Board's fiscal year 2003 budget.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 DISPARATE STRUCTURE AND AN OUTMODED BROADCAST APPROACH HAMPER EFFORTS 
             TO REACH LARGE AUDIENCES IN STRATEGIC MARKETS

    Our reviews of U.S. international broadcasting reveal that the 
Board faces the challenges of operating a mix of broadcast entities 
with varying missions and structures in an environment that provides 
significant marketing obstacles. As we reported in July 2003, the Board 
has adopted a new approach to broadcasting that is designed to overcome 
several of these challenges. The Board's key organizational challenge 
is the disparate mix of broadcast entities it is tasked with 
managing.\8\ To address this problem, the Board has adopted a ``single 
system'' approach to broadcasting whereby broadcast entities are viewed 
as content providers and the Board assumes a central role in tailoring 
this content to meet the demands of individual markets. The Board also 
faces marketing challenges that include the lack of a unique reason for 
listeners to tune in, the general lack of target audiences within 
broadcast markets, and poor-to-fair signal quality for many of the 
broadcast services. Recent initiatives such as Radio Sawa and Alhurra 
have addressed these deficiencies, and the Board has required that all 
broadcast services, to the extent feasible, address these issues as 
well.
---------------------------------------------------------------------------
    \8\ Our July 2003 report discusses additional organizational 
issues, including the potential need for a Chief Executive Officer or 
Chief Operating Officer to handle day-to-day operations for the Board 
and whether VOA and Radio/TV Marti should be reconstituted as grantees 
to put them on the same footing as other U.S. broadcast entities.
---------------------------------------------------------------------------
    DISPARATE STRUCTURE OF BROADCAST OPERATIONS REMAINS AN ONGOING 
                               CHALLENGE

    The Board's major organizational challenge is the need to further 
consolidate and streamline its operations to better leverage existing 
resources and generate greater program impact in priority markets. 
According to the Board's strategic plan, ``the diversity of the 
Broadcasting Board of Governors--diverse organizations with different 
missions, different frameworks, and different constituencies--makes it 
a challenge to bring all the separate parts together in a more 
effective whole.'' As noted in our 2003 report, senior program managers 
and outside experts with whom we spoke supported considering the option 
of consolidating U.S. international broadcasting efforts into a single 
entity.
    The Board intends to create a unified broadcasting system by 
treating the component parts of U.S. international broadcasting as a 
single system. Under this approach, VOA and other U.S. broadcast 
entities are viewed as content providers, and the Board's role is to 
bring this content together to form new services or entities as needed. 
The single-system approach to managing the Board's diversity requires 
that the Board actively manage resources across broadcast entities to 
achieve common broadcast goals. A good example of this strategy in 
action is Radio Farda, which combined VOA and RFE/RL broadcast content 
to produce a new broadcast product for the Iranian market. In the case 
of Radio Sawa, the Board replaced VOA's poorly performing Arabic 
service with a new broadcast entity. The Board's experience with 
implementing Radio Sawa suggests that it can be difficult to make 
disparate broadcast entities work toward a common purpose. For example, 
Board members and senior planners told us they encountered some 
difficulties attempting to work with officials to launch Radio Sawa 
within VOA's structure and were later forced to constitute Radio Sawa 
as a separate grantee organization. While this move was needed to 
achieve the Board's strategic objectives, it contributed to the further 
fragmentation of U.S. international broadcasting.

              NEW INITIATIVES ADDRESS MARKETING CHALLENGES

    The Board's strategic plan comments openly on the marketing 
challenges facing U.S. international broadcasters, specifically that 
many language services lack a unique reason for listeners or viewers to 
tune in; few language services have identified their target audiences-a 
key first step in developing a broadcast strategy; many language 
services have outmoded formats and programs with an antiquated, even 
Cold War, sound and style; and three-quarters of transmitted hours have 
poor or fair signal quality.
    Consistent with its ``Marrying the Mission to the Market'' 
philosophy, the Board has sought to address these deficiencies in key 
markets with new initiatives in Afghanistan, Iran, and the Middle East 
that support the war on terrorism. The first project under the new 
approach, Radio Sawa (recently added to the new Middle East Television 
Network), was launched in March 2002 using many of the modern, market-
tested broadcasting techniques and practices prescribed in its 
strategic plan, including identifying a target audience, researching 
the best way to attract the target audience, and delivering programming 
to the Middle East in a contemporary and appealing format. The Board's 
other recent initiatives also have adhered to this new approach by 
being tailored to the specific circumstances of each target market. 
These initiatives include the Afghanistan Radio Network, Radio Farda 
service to Iran, and the Alhurra satellite service to the Middle East. 
Table 1 describes the Board's recent projects that support the war on 
terrorism.


                    Table 1: The Board's Recent Initiatives that Support the War on Terrorism
----------------------------------------------------------------------------------------------------------------
        Initiative                Launch date                            Project description
----------------------------------------------------------------------------------------------------------------
Radio Sawa\1\               March 2002               A modern Arabic-language network that broadcasts music,
                                                      news, and information to a target audience of 15- to 29-
                                                      year olds in the Middle East via a combination of FM,
                                                      medium wave, short wave, digital audio satellite, and
                                                      Internet transmission resources. Separate streams are
                                                      targeted to Iraq, Jordan and the West Bank, the Persian
                                                      Gulf, Egypt, and Morocco. All five streams have a
                                                      differentiated music program; however, the news is similar
                                                      on the four non-Iraq streams. Board officials say that
                                                      Radio Sawa broadcasts between 10 to 15 minutes of news
                                                      each hour.

Afghanistan Radio Network   August 2002              Afghanistan Radio Network is a coordinated stream of VOA
                                                      Dari and Pashto and RFE/RL's Radio Free Afghanistan radio
                                                      programming. The network targets the broad Afghani
                                                      population and currently broadcasts 24 hours, 7 days a
                                                      week on FM and the Internet. It broadcasts 12 hours in
                                                      Dari and 12 hours in Pashto daily. It features hourly
                                                      regional and global news and information coverage as well
                                                      as reports on issues such as health, education, politics,
                                                      human rights, women's rights, and economic reconstruction.

Radio Farda                 December 2002            Radio Farda combines the efforts of VOA and RFE/RL into a
                                                      single service managed by RFE/RL. Radio Farda targets its
                                                      broadcasts to the under-30 youth in Iran. It broadcasts a
                                                      combination of popular Persian and Western music and a
                                                      total of 8 hours of news and information content daily,
                                                      focusing on regional coverage and developments relating to
                                                      Iran. News updates are given at least twice an hour, with
                                                      longer news programming in the morning and evening. It
                                                      broadcasts 24 hours a day, 7 days a week via medium wave,
                                                      digital audio satellite, and the Internet, as well as 21
                                                      hours a day via short wave.

Alhurra\2\                  February 2004            With a focus on attracting a broad audience in the Middle
                                                      East, the Alhurra satellite television channel provides
                                                      news, current affairs, and entertainment programming on a
                                                      24 hours, 7 days a week basis. Programming focuses on news
                                                      and information, including hourly news updates, daily hour-
                                                      long newscasts, and current affairs talk shows. The
                                                      channel also broadcasts information or educational shows
                                                      on subjects including health and fitness, entertainment,
                                                      sports, and science and technology.

----------------------------------------------------------------------------------------------------------------
\1\ Recently added to the Middle East Television Network.
\2\ Part of the Middle East Television Network. Q02
Source: Broadcasting Board of Governors.


    Although we have not validated available research data, the Board 
claims that implementation of these marketing improvements has led to 
dramatic increases in audience listening rates. For example, based on 
surveys conducted by ACNielsen, the Board maintains that Radio Sawa is 
now the number one international broadcaster in six countries in the 
Middle East,\9\ reaching an average weekly audience of about 38 percent 
of the general population and about 49 percent of its 15- to 29-year-
old target audience across all six countries. These levels far exceed 
the 1 to 2 percent audience reach of the VOA Arabic service, which 
Radio Sawa replaced. In addition, the Board's main research 
contractor--InterMedia--has indicated that as of March 2004, Radio 
Farda is the leading international broadcaster in Iran--achieving an 
average weekly listenership of 15 percent, which is 10 percent more 
than the combined weekly audiences for VOA and RFE/RL's prior services 
to Iran. Board officials have told us that preliminary audience reach 
data for the Board's satellite channel Alhurra will be available by 
June of this year. While the audience numbers on Radios Sawa and Farda 
appear to be very positive, as we reported in July 2003, U.S. 
broadcasters suffer from a credibility problem. To address this issue, 
we recommended that the Board adopt measures of broadcaster 
credibility, which the Board has recently implemented.
---------------------------------------------------------------------------
    \9\ Countries surveyed include Egypt, Jordan, Qatar, the United 
Arab Emirates, Kuwait, and Morocco. Research for Egypt, Qatar, UAE, and 
Kuwait was conducted in July and August 2003. Research for Jordan and 
Morocco was conducted in February 2004. The six countries covered by 
the survey represent only a portion of Radio Sawa's target broadcast 
area--21 Muslim-majority countries in North Africa, the Near East, and 
the Persian Gulf. Notably absent from the Board's performance 
statistics are data on major target countries such as Sudan (about 21 
million adults), Algeria (abut 21 million adults), and Saudi Arabia 
(about 14 million adults).
---------------------------------------------------------------------------
    In addition to these new initiatives, the Board has tasked all 
language services with adopting the tenets of its new approach, such as 
identifying a target audience and improving signal quality, to the 
maximum extent possible within existing budget constraints. They hope 
that these improvements will lead to significant audience boosts for a 
number of higher- and lower-priority services that suffer from very low 
listening rates. For example, data from the Board's 2003 language 
review show that more than one-quarter of all language services had 
listening rates of fewer than 2 percent at that time.
language service review used to reallocate millions to higher-priority 

                            BROADCAST NEEDS

    The Board manages its limited resources through its annual language 
service review process, which is used to address such issues as how 
resources should be allocated among services based on their priority 
and impact, how many broadcast services should be carried, what degree 
of overlap and content duplication \10\ should exist among services, 
and whether services should be eliminated because they have fulfilled 
their broadcast mission. This process responds to the congressional 
mandate that the Board periodically review the need to add and delete 
language services. The Board has interpreted this mandate to include 
the expansion and reduction of language services. Since 1999, the Board 
has identified more than $50 million in actual or potential savings 
through the language service review process by moving resources from 
lower- to higher-priority services, by eliminating language services, 
and by reducing language service overlap and transmission costs.
---------------------------------------------------------------------------
    \10\ Content duplication occurs when VOA and another U.S. broadcast 
entity provide the same type of information to the same audience. Board 
analysis shows that VOA carries more information about America than the 
surrogates and surrogates carry more local news than VOA. However, 
there are areas of overlap in content because each broadcast entity 
carries news about America, as well as international, regional, and 
local events.
---------------------------------------------------------------------------
         REVIEW PROCESS USED TO ADDRESS COMPLEX RESOURCE ISSUES

    As noted in our July 2003 report, the Board's strategic plan 
concludes that if U.S. international broadcasting is to become a vital 
component of U.S. foreign policy, it must focus on a clear set of 
broadcast priorities. The plan notes that trying to do too much at the 
same time fractures this focus, extends the span of control beyond 
management capabilities, and siphons off precious resources. As 
discussed in our report, the Board determined that current efforts to 
support its broadcast languages are ``unsustainable'' with current 
resources, given its desire to increase impact in high-priority 
markets. Our survey of senior program managers revealed that a majority 
supported significantly reducing the total number of language services 
and the overlap in services between VOA and the surrogate broadcasters. 
We found that 18 of 24 respondents said that too many language services 
are offered. When asked how many countries should have more than one 
U.S. international broadcaster providing service in the same language, 
23 of 28 respondents said this should occur in only a few countries or 
no countries at all.
    The Board's annual language service review process serves as the 
Board's principal tool for managing these complex resource questions. 
This process has evolved into an intensive program and budget review 
that culminates with ranked priority and impact listings for each of 
the Board's 74 language services. These ranked lists become the basis 
for proposed language service reductions or eliminations and provide 
the Board with an analytical basis for making such determinations using 
measures of U.S. strategic interests, audience size, press freedom, and 
a host of other factors. Since the first language service review 
process began in 1999 and up through 2002, the Board has reduced the 
scope of operations of over 25 language services based on their 
priority and impact rankings and reallocated about $19.7 million to 
help fund higher-priority broadcast needs such as Radio Sawa and Radio 
Farda.
    As discussed in our February 2004 report, a clear example of the 
language service review process in action was the Board's recent 
proposal to eliminate 17 Central and Eastern European language services 
which served to reduce the overall number of language services and 
eliminate several overlapping services where the Board believed each 
broadcast entity's mission had been completed. This decision resulted 
in nonrecurring budget savings of about $8.8 million for fiscal year 
2004 and recurring annual savings of about $12.1 million. Our only 
criticism of this decision was that the Board's language service review 
process did not include a measure of press freedom that gauges whether 
the press acts responsibly and professionally.\11\ This is a 
significant omission in the Board's current measure, given the 
congressional concern that RFE/RL's broadcast operations not be 
terminated until a country's domestic media meet this condition.\12\ 
Board officials acknowledged that their existing press freedom measure 
could be updated to include information on media responsibility and 
professional quality, and work is under way to develop a more 
comprehensive measure for the Board's 2004 language service review.
---------------------------------------------------------------------------
    \11\ The Board's current press freedom measure index relies heavily 
on Freedom House's press freedom index, which focuses on free speech 
issues, the plurality of news sources, whether media are economically 
independent from the government, and whether supporting institutions 
and laws function in the professional interest of the press. The 
Freedom House index is used and respected by media groups around the 
world. However, it does not assess whether domestic media provide 
accurate, balanced, and comprehensive news and information.
    \12\ See Title III of P.L 103-236, as amended by P.L. 106-113, 
Appendix G, Section 503.
---------------------------------------------------------------------------
          REVIEW OF OVERLAPPING LANGUAGE SERVICES IMPLEMENTED

    In our September 2000 report, we cited the Board's concerns about 
overlapping language services and its plans to address this issue in 
subsequent iterations of the language service review process. In our 
July 2003 report we again raised the issue of language service overlap 
and content duplication between VOA and the surrogates. We also noted 
that while the Board's strategic plan identified overlap as a 
challenge, it failed to answer questions about when it is appropriate 
to broadcast VOA and surrogate programming in the same language.
    The Board has responded to our observations and recommendations by 
incorporating a review of overlapping services in its language service 
review process for 2003. The Board developed several approaches to 
dealing with overlap. For example, services can be ``merged'' by having 
one service subsume another (as was the case with Radio Farda). A 
second approach is to run alternating services, as is the case with the 
Afghanistan Radio Network, which runs VOA and RFE?RL programming on a 
single broadcast stream. Another approach is to simply terminate one or 
both overlapping services. All of the Board's overlapping services were 
assessed with these different approaches in mind. As a result of this 
analysis, the Board identified an estimated $4.9 million in fiscal year 
2004 and 2005 savings from overlap services that could be redirected to 
higher-priority broadcasting needs, such as expanded Persian language 
television for Iran and expanded Urdu language radio for Pakistan.\13\
---------------------------------------------------------------------------
    \13\ The Board also identified an estimated $7.5 million in fiscal 
year 2004 and 2005 savings from transmission reductions during its 2003 
language service review.
---------------------------------------------------------------------------
STRATEGIC PLANNING AND PERFORMANCE MANAGEMENT SYSTEM REVISED TO PLACE A 
                        GREATER FOCUS ON RESULTS

    Mr. Chairman, the Board has revised its strategic planning and 
performance management system to respond to the recommendations in our 
July 2003 report aimed at improving the measurement of its results. In 
that report, we recommended that the Board's new strategic plan include 
a goal designed to gauge progress toward reaching significant audiences 
in markets of strategic interest to the United States. Our report also 
recommended that the Board establish key performance indicators 
relating to the perceived credibility of U.S. broadcasters, whether 
audiences are aware of U.S. broadcast offerings in their area, and 
whether VOA is achieving its mission of effectively explaining U.S. 
policies and practices to overseas audiences.\14\
---------------------------------------------------------------------------
    \14\ This Board's strategic planning and performance management 
system includes its 5-year strategic plan, Results Act reporting 
(annual performance plans and reports), the Office of Management and 
Budget's new Program Assessment Rating Tool, the annual language 
service review process, and annual program reviews of individual 
language services.
---------------------------------------------------------------------------
                REACHING LARGE AUDIENCES IN KEY MARKETS

    In response to our recommendation for a goal that would measure 
progress in reaching large audiences in markets of strategic interest 
to the United States, the Board replaced the seven strategic goals in 
its plan with a single goal focused on this core objective.\15\ The 
goal is supported by a number of performance indicators (at the entity 
and language service level) that are designed to measure the reach of 
U.S. international broadcasting efforts and whether programming is 
delivered in the most effective manner possible. Weekly listening rates 
at the entity level and target audience numbers by language service 
provide key measures of the Board's reach. Other program effectiveness 
measures include program quality, the number of broadcast affiliates, 
signal strength, Internet usage, and cost per listener.
---------------------------------------------------------------------------
    \15\ We also reported that efforts to assess the effectiveness of 
the Board's new approach to broadcasting may be hampered by the lack of 
details on how the Board intends to implement each of its program 
objectives. Our September 2000 and July 2003 reports both noted that 
the Board's performance plans lacked specifics on implementation 
strategies, resource requirements, and project time frames. The Board 
acknowledged these deficiencies and said that major changes are slated 
for future planning efforts.
---------------------------------------------------------------------------
                        BROADCASTER CREDIBILITY

    In response to our recommendation for a measure of broadcaster 
credibility to identify whether target audiences believe what they 
hear, the Board added such a measure to its performance management 
system. Reaching a large listening or viewing audience is of little use 
if audiences largely discount the news and information portions of 
broadcasts. Our survey of senior program managers and discussions with 
Board staff and outside groups all suggest the possibility that U.S. 
broadcasters (VOA in particular) suffer from a credibility problem with 
foreign audiences, who may view VOA and other broadcasters as biased 
sources of information. InterMedia, the Board's audience research 
contractor, told us that it was working on a credibility index for 
another customer that could be adapted to meet the Board's needs and, 
when segmented by language service, would reveal whether there are 
significant perception problems among key target audiences. However, to 
develop a similar measure, InterMedia told us that the Board would need 
to add several questions to its national survey instruments.

                           AUDIENCE AWARENESS

    In response to our finding that the Board lacked a measure of 
audience awareness, the Board has added such a measure to its 
performance management system. We determined this measure would help 
the Board answer a key question of effectiveness: whether target 
audiences are even aware of U.S. international broadcasting programming 
available in their area. Board officials have stated that this measure 
would help the Board understand a key factor in audience share rates 
and what could be done to address audience share deficiencies. We found 
that the Board could develop this measure because it already collects 
information on language service awareness levels in its audience 
research and in national surveys for internal use.

                       VOA MISSION EFFECTIVENESS

    Finally, in response to our finding that the Board lacked a measure 
of whether target audiences hear, understand, and retain information 
broadcast by VOA on American thought, institutions, and policies, Board 
officials we spoke with told us that they are currently developing this 
measure for inclusion in the Board's performance management system. The 
unique value-added component of VOA's broadcasting mission is its focus 
on issues and information concerning the United States, our system of 
government, and the rationale behind U.S. policy decisions. Tracking 
and reporting these data are important in determining whether VOA is 
accomplishing its mission. Officials from the Board's research firm 
noted that developing a measure of this sort is feasible and requires 
developing appropriate quantitative and qualitative questions to 
include in the Board's ongoing survey activities.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions you or other members of the 
subcommittee may have at this time.

    Senator Sununu. Thank you, Mr. Ford.
    Dr. Ghareeb.

 STATEMENT OF DR. EDMUND GHAREEB, ADJUNCT PROFESSOR OF MIDDLE 
  EAST HISTORY AND POLITICS, SCHOOL OF INTERNATIONAL SERVICE, 
                      AMERICAN UNIVERSITY

    Dr. Ghareeb. Thank you, Mr. Chairman. It is a pleasure to 
be here.
    Let me say right now that there is a credibility gap 
between the United States and the Middle East, and we have 
heard about this quite a bit today and in the media. Due to 
recent events, this disparity is increasing at a startling 
pace. Many in the region judge, as we have heard, the United 
States mainly on its foreign policy and how it affects the 
people in the region. The United States needs to reach out to 
the people of the area and to try to close that widening gap.
    There have been many outreach projects in the past. The 
USIA and the Voice of America have been there. Alhurra and 
Radio Sawa are the latest media endeavors by Congress and the 
Broadcasting Board of Governors, and they are the most 
comprehensive initiatives so far to try to reach the people of 
the area. While radio and satellite ownership has exploded in 
recent years, reaching people is by no means an easy task.
    Even before Alhurra was on the air, many people in the area 
and in the region said that it would be a mouthpiece for the 
U.S. Government. In the months ahead, Alhurra will have to 
prove itself over and over again by providing credible and 
objective news coverage and analysis, by interviewing people 
who do not always agree with the current administration and its 
policies.
    Effective communication also requires taking your 
audience's views, values, feelings, and sense of identity into 
account. It is not enough to tell people what is on your mind. 
You have to listen to them. You have to find out what is on 
their minds.
    If Alhurra and Radio Sawa are able to prove that their news 
is reliable and free of government influence, they will have a 
unique opportunity to cover stories that put U.S. policies in 
context and debate them freely. It bears repeating, however, 
that there should be no interference from the U.S. Government. 
As you know, most Arab media outlets are state run. Governments 
influence what is covered and how to cover it. Consequently, 
people in the region are quite suspicious of all official 
media.
    Furthermore, there is a great deal of competition, as you 
have heard today from Ambassador Rugh and Professor Telhami. 
There is saturation of the media environment in the Middle 
East. The information technology revolution, the CNN factor, 
dissatisfaction with their own media and dissatisfaction with 
the way the Western media covered the Gulf War of 1991 
contributed to the rise of a new and more independent Arab 
print and TV media. Today, in addition to the BBC and Radio 
Monte Carlo, many people are getting their news and 
entertainment from Al Jazeera, Al Arabiya, Al Hayat-LBC, Abu 
Dhabi, Dubai, ANN, Future, Radio Orient, NBC, Al Manar, and 
many others.
    There have been several references in the news recently to 
the allegation that media outlets such as Al Jazeera and Al 
Arabiya are sparking the recent uprisings and encouraging 
people to take a stand against the coalition forces. I think it 
is important to remember that the media in the region mirror 
the feelings and the attitudes of their audiences. They place 
as much emphasis on reflecting the emotions and the attitudes 
in the region as they do on the events of the day. They may 
influence people, but the sentiment is already there. They are 
not creating the problem. That is where Alhurra and Radio Sawa 
have the opportunity, the potential to play a big role. They 
have the opportunity to provide the region with a 
straightforward approach to the news free of emotional 
coloration and innuendo.
    When Alhurra started, an American journalist interviewed a 
Jordanian about what he thought of a program he had just 
watched, and the man said that was all right, that he had heard 
different people who represented a spectrum of views on the 
program. But when told that Alhurra was financed by the U.S. 
Government, he decided the program was terrible. The change in 
attitude was perceptible.
    A serious problem likely to face media coverage is that the 
same events mean different things to different audiences. 
Presenting events only as they are seen through American eyes 
may alienate Arabs and Muslims. To many Americans, the fighters 
in Fallujah or in Najaf are insurgents and terrorists. For many 
Iraqis and Muslims, they are resistance fighters.
    When American forces in Iraq attack the insurgents in 
Fallujah, it is perceived by many Arabs and Muslims because of 
collateral damage, the death of innocent bystanders, as though 
the U.S. is attacking the city and its inhabitants. When 
mosques in the city broadcast prayers appealing to God under 
fire, it looks like the U.S. is attacking Islam. These are 
emotionally charged situations, and emotions differ depending 
on one's identity. The challenge facing the U.S. officials and 
the U.S. media today is that messages are being broadcast from 
one side to the other not just through the media, but by the 
unspoken messages conveyed by symbols and pictures.
    Iraq and the Palestinian question, as we have also heard 
earlier, are very important issues for many Arabs and Muslims. 
Public diplomacy, accompanied by a very credible media 
performance by Radio Sawa and Alhurra, will not by themselves 
sway the majority of Arab and Muslim public opinion unless the 
Muslims and Arabs come to believe that U.S. policies are taking 
their concerns and aspirations into account.
    I also think it is important to point out that, yes, the 
sentiments against American policies is very strong right now. 
However, feelings toward the U.S. and the American people are 
not all negative. When you talk to people in the Middle East 
about personal freedom, about democracy, about values that 
Americans enjoy and advocate, it is something they admire and 
are intrigued by. American technological, scientific and 
educational achievements, as well as American products are 
widely admired.
    Another thing, of course, is American culture, music, 
movies, television, and books, you name it, people in the 
region are watching, listening and reading. And from the 
popularity of Radio Sawa, I think the same can be said for 
music. Several young people that I talked to in the Middle East 
said that Radio Sawa has really neat songs and music, so they 
turn the volume up when the songs are on, but some of them turn 
it down when the news comes on because they think the news is 
slanted, although many continue to listen.
    Overall, the United States needs to foster positive images 
of itself and of its motives abroad and use them to help 
rebuild relations with the people of the Middle East. Right now 
positive American values and images are not getting exported 
nearly enough. The airwaves and newspapers in the Middle East 
are full of stories of the United States trying to dominate the 
region and to dictate its views upon the people of the Middle 
East. They look at Iraq and ask if this is a war of freedom and 
democracy or a fight for oil and hegemony. They wonder about 
American commitment to freedom of speech when the CPA closes a 
very small newspaper or seeks to constrain popular satellite 
channels.
    The United States needs a voice. They need many voices, 
voices of moderation, voices that speak clearly and objectively 
about the events in the Middle East and around the world. There 
is not a panacea or a quick fix that will change sentiments all 
at once. It will be a long process. I am not saying that you 
will be able to reach everyone.
    However, I would like to applaud your efforts, whether it 
is through Alhurra and Radio Sawa or by reaching out to speak 
to Middle East media or through other fora, to begin to bridge 
the gap between the people of the region and the American 
people.
    Thank you again for allowing me to appear before you today.
    [The prepared statement of Dr. Ghareeb follows:]

                Prepared Statement of Dr. Edmund Ghareeb

    Thank you for inviting me to testify today. Let me start by saying 
that right now there is a credibility gap between the United States and 
the Middle East and due to recent events; this disparity is increasing 
at a startling pace. Many times people in the Middle East will judge 
the U.S. based solely on its foreign policy and how it affects them. 
Now is the time the U.S. needs to reach out and try and close this 
expanding gap. Through government officials, like you, the U.S. reaches 
out to leaders in the Middle East. However, there is a constituency 
that is much more important and we need to make every effort to reach 
out to them--the people who live in the Middle East.
    In the past, there have been different outreach projects to connect 
with Middle Easterners, but they were specialized and could only reach 
a specific segment of the population. Some excellent programs were also 
undertaken by the USIA. Alhurra and Radio Sawa, the latest media 
endeavors by Congress and the Broadcasting Board of Governors are the 
most comprehensive initiative to reach the people of the Middle East, 
without going through a government channel. Radio and satellite 
television ownership has exploded in recent years and is quickly 
becoming commonplace in many households in the Middle East. But, still 
reaching people in the Middle East in their homes is by no means an 
easy task.
    Even before Alhurra was on the air, many newspapers and people in 
the region said it would be a mouthpiece for the United States 
government. In the months ahead Alhurra will have to prove itself over 
and over again, by providing credible and objective news coverage and 
analysis and by interviewing people who do not always agree with the 
current administration and its policies.
    Effective communication, however, requires taking your audience's 
values, feelings and sense of identity into account. It is also not 
enough to tell people what is on your mind. We have to also listen to 
what is on their minds.
    If Alhurra and Radio Sawa are able to prove that their news is 
reliable and free of government influence, they will have a unique 
opportunity to cover stories that put U.S. policies in context and 
debate them freely. It bears repeating, however, there should be no 
interference from the U.S. government. As you know, most Arab media 
outlets are state run. They influence what is covered and how to cover 
it. Consequently, people in the region are quite suspicious of their 
official media. Furthermore, the Middle East is becoming saturated with 
radio and TV channels as well as the growing influence of the Internet. 
The information technology revolution, the CNN factor, and general 
unhappiness with their own official media contributed to the rise of 
the new Arab print and TV media. Today, in addition to the BBC and 
Radio Monte Carlo, many Arabs are getting their news and entertainment 
from channels such as Al-Jazeera, Al-Arabiya, Al Hayat-LBC, Abu Dhabi, 
Dubai, ANN, Future as well as Radio Orient, Orbit and Dream in addition 
to their own government channels and to channels beamed from the 
outside.
    There have been several references in the news recently to the 
allegation that media outlets such as Al-Jazeera and Al-Arabiya are 
sparking the recent uprisings and encouraging people to take a stand 
against Coalition forces. I want to take issue with that point. The 
media that are in the region, like the U.S. media, mirror the feelings 
and attitudes of their audiences. They place as much emphasis on 
reflecting the emotions and the attitudes in the region, as they do the 
events of the day. Yes, they may influence people, but the sentiment is 
already there, they are not creating something out of nothing. That is 
where Alhurra and Radio Sawa can have the biggest impact. They have the 
opportunity to provide the region with a straightforward approach to 
the news free of emotional coloration and innuendo.
    When Alhurra started, an American journalist asked a Jordanian man 
what he thought of the program he had just watched, and the man said it 
was alright, that he had heard different people who represented a 
spectrum of views on the program; but when told that Alhurra was 
financed by the U.S. government, he decided the program was terrible; 
the change in attitude was noticeable.
    A serious problem likely to face media coverage is that, sometimes, 
the same events mean different things to different audiences. 
Presenting events only as they are seen through American eyes may 
alienate Arabs and Muslims. To many Americans the fighters in Falluja 
or Najaf are insurgents and terrorists. For many Iraqis and Muslims 
they are resistance fighters and if they are killed they are martyrs.
    When American forces in Iraq attack the insurgents in Falluja, it 
is perceived by many Arabs and Muslims (because of collateral damage, 
the death of women and children, innocent bystanders) as though the 
U.S. is attacking Falluja, the city, and its inhabitants. When mosques 
in the city broadcast prayers, appealing to God, under fire, it looks 
like the U.S. is attacking Islam. These are emotionally charged 
situations, and the emotions differ depending on whether one is an 
Iraqi or an American. The challenge facing U.S. officials and U.S. 
media today is that message are being broadcast from one side to the 
other not just through the media but by the unspoken messages conveyed 
by symbols and by pictures.
    It is also important to remember that strong opposition exists in 
the region to U.S. policies. Public diplomacy accompanied by a very 
credible media performance by Radio Sawa and Alhurra will not, by 
themselves, sway the majority of Arab and Muslim public opinion unless 
they come to believe that U.S. policies are reflecting their own 
concerns and aspirations for fairness, justice, a better way of life 
and increased political participation.
    I also think it is important to point out that, yes, the sentiment 
against American policies is very strong right now, and our foreign 
policy, particularly in Iraq and in the Israeli-Palestinian arena, is 
at the heart of that. However, feelings towards the U.S. and the 
American people are not all negative. When you talk to people in the 
Middle East about personal freedom, democracy and values that Americans 
enjoy it is something they admire and are intrigued by.
    Another thing that is almost universally liked about America is our 
pop culture. Music, movies, television and books--you name it and they 
are watching, listening and reading it. A quick glance at any 
television channel lineup or movie marquee and you are bound to find 
``Friends'' or the latest blockbuster hit. And from the popularity of 
Radio Sawa, I think the same can be said for music. Several young 
people that I spoke to in the Middle East say that Radio Sawa has 
really neat songs and music, so they turn the volume up when the songs 
are on, but some turn it down when the news comes on because they feel 
that the news is slanted.
    The U.S. needs to foster positive images of itself and its motives 
abroad and use them to help rebuild relations with the people of the 
Middle East. Right now, positive American values and images are not 
getting exported nearly enough. The airwaves and newspapers in the 
Middle East are full of examples of the United States trying to 
dominate the region and to dictate its views upon the people of the 
Middle East. They look at Iraq and ask if this is a war for freedom and 
democracy, or a fight for oil and hegemony? They wonder about American 
commitment to the freedom of speech when the CPA closes a small 
newspaper or seeks to constrain popular satellite channels.
    The U.S. needs a voice out there that is a voice of moderation--to 
speak clearly and objectively about the events in the Middle East and 
around the world. There is not a panacea or quick fix that will change 
sentiment all at once; it will be a long process. I am also not saying 
that you will be able to reach everyone.
    However, I would like to applaud your efforts, whether it is 
through Alhurra and Radio Sawa, or by reaching out to speak to Middle 
East media, to bridge the gap between the U.S. and the Middle East, and 
to begin to narrow the gap between the people of the region and the 
American people.
    Thank you again for allowing me to appear before you today. I will 
be happy to answer any questions you may have.

    Senator Sununu. Thank you. Unfortunately, the length of 
today's presentations have not left us with a great deal of 
time for questions, but I would like to ask just a few.
    First, Ambassador Rugh, you talk about your perception of 
the difficulty in penetrating Arab markets with Alhurra. The 
previous panel presented information, a recent survey as to the 
number of satellite viewers that had watched Alhurra 
programming in the past week, and at least in a number of 
countries, Jordan, Lebanon, Kuwait, it was over 35 percent, and 
in several other countries, Syria, UAE, and Saudi Arabia, it 
was 20 percent or even a little higher.
    Are those good numbers? We would, obviously, like those to 
be better. Is that a pleasant surprise to you after only 2 
months of broadcasting and what do you think we should be 
hoping for in this point in the process?
    Ambassador Rugh. Mr. Chairman, I think those are good 
numbers as far as they go. It is early in the history of 
Alhurra. We do not know what the long term will be. The numbers 
may be high possibly because of curiosity for a new medium. As 
I tried to emphasize, it is considered a U.S. Government 
broadcasting instrument, and American policy is the focus of 
everybody's attention in the Middle East now. They want to know 
what it is. They want to understand it. They are puzzled. 
Everybody I talked to in the region says explain to me why our 
policy is what it is. So there is interest and there is 
enormous potential, but the potential has to be capitalized on 
if we are going to maintain the market. We have to do quality 
programming. We have to meet the expectations of the audience 
or it is going to disappear.
    Dr. Telhami. May I followup on this briefly?
    Senator Sununu. Yes, you may. But I would like actually 
each of our panelists to address the following question, and 
doctor, you are welcome to talk about the perception as well.
    The second question is to what extent have those of you who 
have watched satellite TV broadcasts, especially those 
broadcasts of government-owned stations in the region, how have 
you seen or noticed those stations changing over the last 
several years, first, with the advent of Al Jazeera, which was 
certainly a different format, even though it was government-
funded, and second, with Alhurra? We will certainly begin with 
you, Dr. Telhami.
    Dr. Telhami. Thank you. Let me just say on the previous 
question, because I am doing surveys actually about people 
watching media. I have done one a year ago. I am doing that 
now, and I will probably have some very good data on Alhurra 
compared with others.
    Mr. Pattiz was extremely careful to say these are 
preliminary numbers because they were not systematic yet. For 
example, the question may have been, have you ever watched 
Alhurra? Which is a very different question from, do you 
consistently watch it for the news? My suspicion is the numbers 
of Al Jazeera and Al Arabiya probably are 80 to 90 percent, and 
the question that we usually ask, when we do a survey, to get 
at whether a station has an impact or not, is we say, which is 
your first choice for news, which is your second choice, which 
is your third choice. We look at three choices. And then we 
have, do you watch it once a week, twice a week, five times a 
week? And we find the intensity, of course, is all that 
matters. So it is too early to tell, obviously. It is strong, 
but these numbers really cannot tell you yet the story.
    Now, if you look at Al Jazeera--and I have been watching it 
for a long time and I participate in some of these debates--in 
my judgment, by and large, if you compare the media now, the 
satellite phenomenon, with what existed in the Arab world a 
decade ago, there is no question that it is far better than it 
was and you get far more varieties of views than you did before 
and it is far more accurate than it was a decade ago. It is 
flawed and there are a lot of problems, and they are learning 
through it, but there is no question in my mind that it is far 
better than it was. There are some programs that are absolutely 
superior. There are some programs that we would be proud to put 
on our own television, including news programs. Al Arabiya has 
an excellent discussion show with one of the leading 
journalists here that has a variety of views that is a high-
quality discussion that we would be impressed with on our own 
television. And they have others that we would not want to put 
on our high-quality television. So overall, I think it has been 
better, but it is certainly not perfect.
    Senator Sununu. Ambassador Rugh.
    Ambassador Rugh. Mr. Chairman, if I could add something on 
the polls because you asked a very good question. I have not 
seen the polls that have been referred to, but I think the best 
poll that would give us good information about the 
effectiveness of Alhurra and Radio Sawa as well would be to 
take a poll at the time of a major event, for example, the 
capture of Saddam Hussein or a speech by President Bush, and 
see what channel the audiences select. It is not enough to say, 
did you watch Alhurra this week, as Professor Telhami says. You 
want to know what their choice was on a crucial issue like a 
major political event, particularly in the Middle East. Are 
they watching Alhurra for coverage of Fallujah? Are they 
watching it for coverage of the West Bank and Gaza?
    On the question of change over time, I agree completely 
with Professor Telhami. It has been a dramatic change. The 
pioneering role of Al Jazeera, which is way out ahead of the 
others, has forced other broadcasting stations, even directly 
government-controlled ones like Abu Dhabi television, to 
improve the quality of their programming, the quality of their 
reporting. We often in America focus on the discussion programs 
and the commentaries, but the news reporting of Al Jazeera and 
Al Arabiya is outstanding. Unless Alhurra can match that, 
nobody is going to watch.
    Senator Sununu. Ambassador Rugh, I think in some previous 
testimony, you talk about producing programs for placement on 
other stations, local stations throughout the Arab world. If 
that approach were pursued, do you think it likely that the 
governments would give us access on stations for the kind of 
programming, either balanced programming or even programming 
that might be critical of these governments? Is it realistic to 
expect that we would get placement?
    Ambassador Rugh. I think yes, Mr. Chairman. I think 
particularly those satellite stations that are competing for 
market share like Al Jazeera and Al Arabiya. We can get access 
to them. Professor Telhami has been on them. Professor Ghareeb 
has been on them. I have been on them. They do not ban American 
comments, and the more Americans to participate, the better, 
and they welcome them. I know that for a fact. American 
officials ought to speak more on television.
    As far as placement goes, as a public affairs officer in 
Egypt in Saudi Arabia and other places, I found it fairly easy 
to place good material on local programs. Now, if it was a 
program that directly criticized the host government for 
corruption, they might not take it, but if it is a well-
produced program, yes, they will take it. This is a hungry 
medium that needs material and they will take our material too.
    Senator Sununu. Dr. Ghareeb, what do you think about the 
value or the efficacy of taking privately produced media 
broadcasts, whether it is on a major station like CNN or MSNBC, 
Fox, et cetera, and translating that? Are Arab translations of 
American programming of value or interest in the channels or 
the outlets we have been speaking of?
    Dr. Ghareeb. First, let me comment briefly on the role of 
the new media in the Arab world. I think it has revolutionized 
the way people receive their information and their news. They 
have forced government media to lift the ceiling on debate and 
discussion. We are seeing discussion of issues that have been 
taboo, as Ambassador Rugh said earlier, issues that have to do 
with the Arab-Israeli conflict, that have to do with sex, that 
have to do with religion, secularism, Kurdish nationalism, and 
numerous other issues.
    There is no doubt that the record is mixed. On the one 
hand, they have raised this debate. On the other hand, they 
have not brought about the changes that a lot of people thought 
that they were going to do, that they were going to increase 
democratization and political participation because the 
government still owns some of these channels and we do not see 
a real demand for accountability when it comes to issues 
dealing with domestic problems, domestic corruption, questions 
of the budget, for example. These are not focused on enough. In 
fact, some people think that the media have transformed the 
audiences where there is now an audience lethargy. People sort 
of participate vicariously through the media instead of trying 
to bring about changes of the government.
    As to the types of American programs which could be 
translated, if they could be translated well, some of them 
could perhaps find an audience in the Arab world. For example, 
I think something like the Lehrer News Hour might be an 
excellent program. I think that program would also have an 
audience in the Arab world. But at the same time, I do not 
think you can use all programs because the values here are very 
important. The way you communicate with people in the Middle 
East is a little different from communicating with people in 
the United States.
    And this is in part the problem of U.S. officials because 
if you take a look at Al Jazeera or Al Arabiya and many others, 
you will find that American officials often appear on these 
channels regularly. Sometimes I have seen President Bush 
speaking on Al Jazeera or on Al Arabiya. They were airing a 
speech live while it was not being aired on American 
television. But the problem sometimes is that the message is 
not well understood over there. The values are different and 
that is something that has to be taken into account.
    Senator Sununu. Mr. Ford, from your testimony, I get the 
impression that the BBG has been somewhat responsive in dealing 
with recommendations having to do with overlap and revisiting 
the format or the structure of its language services. Are there 
any areas or any recommendations that the GAO has made where 
the BBG response has been lacking or has been slower than you 
would hope?
    Mr. Ford. I would not say that they responded negatively to 
our recommendations. I think some of them are issues related to 
whether they have resources to implement more surveys, to have 
a better understanding of whether they are actually meeting 
their goals, whether the audience they are trying to meet is 
actually getting the message. Some of that is a resource issue. 
Some of it is because, as I mentioned earlier, they are trying 
to manage many other broadcast operations, it is a challenge 
for them to try to come up with an efficient approach to 
optimize their resources. So those kinds of issues are the ones 
where they generally agree that they need to do that, but the 
process of them implementing those things is taking some time.
    Senator Sununu. Thank you.
    I want to thank each of the panelists. You have been very 
patient with your time, and I look forward to revisiting this 
issue as Alhurra and the BBG continue their mission.
    This hearing is adjourned.
    [Whereupon, at 4:54 p.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair.]

                                 <all>

</pre></body></html>
